Appendix A
Appendix
A

Judgement Entry
Docket no.
Court
The Supreme Court of Ohio
Mailed 08/20/2020
2020-0615
Filed 08/18/2020
2020-0hio-4045
Case Caption: RRL Holding Company of Ohio LLC, et al. v. Merrilee Stewart,
Jurisdictional Appeal Filed: 05/14/2020
Description: Motion for reconsideration of 6/29/2020 (appeal from 10th
District Court of Appeals 20AP44 judgement of 2/20/2020)______________

1

0F223

H^4anklin County Ohio Clerk of Courts of the Common Pleas- 2020 Aug 28 4:06 PM-18CV007212
:»

PS m :
fif li tfess Lfes
R.
i

Supreme (Eourt of ©ffto

flUG 18 2828

ir’*'

RRL Holding Company of Ohio LLC, et al.
O

o
o
o

V*

<

Merrilee Stewart

a.

o

Case No. 2020-0615
RECONSIDERATION ENTRY

CNI

a.

<o
CM

Franklin County

I

It is ordered by the court that the motion for reconsideration in this case is denied.

O)
O)
3

<

^IS ft^her or<^ere<3 that appellant's motion for leave to proceed under R.C.
2323.52(F)(2) to file the accompanying motion for reconsideration is denied.

O
CM
O
CM

in

(Franklin County Court of Appeals; No. 20AP-44) Lower Case: 18CV 7212

3
O

o

o

o
«

ra
0)
o.
Q.

<

3
O

o
.2

iuUtt
Maureen O’Connor
Chief Justice

9k

«4-4

jJ

x:
O

>.

c
3
O

o
.E
2

c
a

u.

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

2

0F223

H¥?anklin County Ohio Clerk of Courts of the Common Pleas- 2020 Aug 28 4:06 PM^18Cv6072i2

r7

! 1S3®

Wqt ^upttxm GLimvt rrf (©Ijt#

JUN 17 2028

lb

HEwy^rframt

RRL Holding Company of Ohio LLC,etal.
o
o
o
O
o.

<

Case No. 2020-0615

V.

ENTRY

Merriiee Stewart

O
CM
Q.

to

This cause is pending before the court as ajurisdictional appeal.

CM

o>
o

Upon consideration of appellant’s motion for leave to proceed under R.C. 2323.52, it
is ordered by the court that the motion is denied. Accordingly, this cause is dismW4

3

<

O
CM
O
CM

It is further ordered that appellant’s motion to file a memorandum in support of
jurisdiction out of time due to the pandemic is denied as moot.

<b
3

O

o

(Franklin County Court of Appeals; No. 20AP-44)

o

o

a>a
a

<

k

AjUJUL

3

o

o
.2

K 'ij

jJ

Maureen O’Connor
Chief Justice

£

o

>.

c
3
o

o
.E
2

c
ra
u_

The Officii Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

3

Jimprrme Court of ©t|to

CASE ANNOUNCEMENTS
August 18, 2020
[Cite as 08/18/2020 Case Announcements, 2020-0hio-4045.]

MERIT DECISIONS WITHOUT OPINIONS
2020-0828. Petrie v. Eppinger.
In Habeas Corpus. Sua sponte, cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0831. Miller v. Phillips.
In Habeas Corpus. Sua sponte, cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
APPEALS ACCEPTED FOR REVIEW
2020-0677. Eighmey v. Cleveland.
Cuyahoga App. No. 108540, 2020-0hio-1500. Sua sponte, cause held for the
decision in 2020-0341, Lycan v. Cleveland.
O’Connor, C.J., and French, J., would accept the appeal on proposition of law
No. I only.
Kennedy, Fischer, and Stewart, JJ., would not hold the cause.
2020-0705. Maternal Grandmother v. Hamilton Cty. Dept, of Job & Family
Servs.
Hamilton App. No. C-l80662, 2020-0hio-1580.
Fischer and DeWine, JJ., dissent.

4

2020-0726. State v. Leegrand.
Cuyahoga App. No. 108626, 2020-0hio-3179. Sua sponte, cause held for the
decision in 2019-1430, State v. Dowdy.
DeWine, J., would not hold the cause.
Kennedy and Fischer, JJ., dissent.
APPEALS NOT ACCEPTED FOR REVIEW
2020-0359. State v. Reed.
Erie App. Nos. E-18-017 and E-18-018, 2020-0hio-138.
2020-0509. State v. Kirk.
Cuyahoga App. Nos. 107527 and 107553, 2019-Ohio-3887.
French, J., dissents.
2020-0636. State v. Yanni.
Muskingum App. No. CT2019-0050, 2020-0hio-1352.
2020-0645. Fleming v. Shelton.
Cuyahoga App. No. 108660,2020-0hio-1387. Appellee’s motion to dismiss denied.
Kennedy and Stewart, JJ., would deny the motion as moot.
2020-0662. Curry v. Columbia Gas, Inc.
Franklin App. No. 19AP-618, 2020-Ohio-2693. Appellant’s motion for judgment
on pleadings denied.
Kennedy, J., would deny the motion as moot.
2020-0672. SRS Distrib., Inc. v. Axis Alliance, L.L.C.
Montgomery App. No. 28607, 2020-0hio-1529.
2020-0673. Noe v. Housel.
Lucas App. No. L-18-1267, 2020-0hio-1537.
Kennedy, J., dissents.
2020-0674. Total Quality Logistics, L.L.C. v. ATA Logistics, Inc.
Clermont App. No. CA2019-09-071, 2020-0hio-1553.
2020-0678. Gauthier v. Gauthier.
Warren App. No. CA2018-09-118, 2019-Ohio-4397.
2

08-18-2020
5

2020-0679. Gauthier v. Gauthier.
Warren App. Nos. 2018-08-098 and 2018-08-099, 2019-0hio-4208.
2020-0680. In re Foreclosure of Liens for Delinquent Land Taxes by Action In
Rem v. Parcels of Land Encumbered with Delinquent Tax Liens.
Guernsey App. Nos. 19CA45, 19CA46, 19CA51, and 19CA52.
Kennedy, J., dissents.
2020-0681. Midfirst Bank v. Spencer.
Cuyahoga App. No. 108292, 2020-0hio-106.
Donnelly, J., dissents and would accept the appeal on proposition of law No. I.
2020-0684. State v. Williams.
Seneca App. No. 13-19-25, 2019-Ohio-5296.
2020-0694. State v. Martre.
Allen App. No. 1-19-82.
2020-0695. Lucas v. Noel.
Medina App. No. 18CA0080-M, 2020-0hio-1546.
Kennedy, J., dissents.
2020-0696. Sengpiel v. Sengpiel.
Summit App. No. 29563.
Kennedy, J., dissents.
2020-0697. Black v. Girard.
Trumbull App. No. 2019-T-0050, 2020-0hio-1562.
Kennedy and DeWine, JJ., dissent and would consolidate the cause with 20200698, Black v. Girard.
2020-0698. Blacky. Girard.
Trumbull App. No. 2019-TR-0053, 2020-0hio-1563.
Kennedy and DeWine, JJ., dissent and would consolidate the cause with 20200697, Black v. Girard.
2020-0699. State v. Lacy.
Ashtabula App. No. 2019-A-00058.

3

08-18-2020
6

2020-0701. State v. Hart.
Richland App. No. 2019 CA 0086, 2020-0hio-1640.
Kennedy, J., dissents.
Fischer, J., dissents and would accept the appeal on proposition of law No. II.
2020-0706. Liberty Mut. Ins. Co. v. Three-C Body Shop, Inc.
Franklin App. No. 19AP-775, 2020-Ohio-2694.
2020-0707. State v. Lucas.
Cuyahoga App. No. 108436, 2020-0hio-1602.
Fischer, J., dissents and would accept the appeal on proposition of law Nos. I
through III.
Donnelly, J., dissents and would accept the appeal on proposition of law
No. VIII.
2020-0709. State v. Benson.
Guernsey App. No. 19CA000009, 2019-Ohio-4315.
2020-0711. State v. Cammack.
Cuyahoga App. No. 108705,2020-Ohio-2942.
2020-0712. Christiana Trust v. Berter.
Butler App. No. CA2019-07-109, 2020-Ohio-727.
2020-0714. State v. Copeland.
Cuyahoga App. No. 108785,2020-0hio-1621.
2020-0717. State v. Showes.
Hamilton App. No. C-l80552, 2020-0hio-650.
Kennedy and DeWine, JJ., dissent.
Fischer, J., not participating.
2020-0719. McCormick v. Flaugher.
Richland App. No. 2019 CA 0094, 2020-Ohio-2686.
Kennedy, J., dissents.
Fischer and DeWine, JJ., dissent and would accept the appeal on proposition
of law No. I.
2020-0720. O’Donnell v. Northeast Ohio Neighborhood Health Servs., Inc.
Cuyahoga App. No. 108541, 2020-0hio-1609.
4

08-18-2020
7

2020-0725. J.P.v.T.H.
Lorain App. No. 19CA011469, 2020-0hio-320.
2020-0734. Gregory v. Cuyahoga Cty.
Cuyahoga App. No. 108192, 2020-0hio-2714.
2020-0745. State v. Everett.
Stark App. No. 2019CA00147, 2020-Ohio-2733.
2020-0775. State v. Simpson.
Montgomery App. No. 28558, 2020-0hio-2961.
2020-0792. State v. Beem.
Licking App. No. 2019CA00062, 2020-Ohio-2964.
Stewart, J., dissents.
2020-0796. State v. Hays.
Summit App. No. 29506, 2020-0hio-2919.
Fischer, J., dissents and would accept the appeal on proposition of law No. II.
2020-0801. State v. Dixon.
Cuyahoga App. No. 109162, 2020-0hio-3038.
Donnelly, J., dissents and would hold the cause for the decision in 2019-1430,
State v. Dowdy.
RECONSIDERATION OF PRIOR DECISIONS
2018-1116. State v. McFarland.
Cuyahoga App. No. 105570,2018-0hio-2067. Reported at_Ohio St.3d__ , 2020Ohio-3343,__N.E.3d__ . On motion for reconsideration. Motion denied.
Donnelly and Dorrian, JJ., dissent.
Julia L. Dorrian, J., of the Tenth District Court of Appeals, sitting for
Stewart, J.
2019-1276. State ex rel. Kendrick v. Parker.
Montgomery App. No. 28098. Reported at 159 Ohio St.3d 1441, 2020-Ohio-3677,
149 N.E.3d 510. On motion for reconsideration. Motion denied.

5

08-18-2020
8

2019-1546. State ex rel. Miller v. May.
Richland App. No. 19 CA 56,2019-0hio-4065. Reported at Ohio St.3d_, 2020Ohio-3248, N.E.3d . On motion for reconsideration. Motion denied.
2020-0210. State v. Bonnell.
Cuyahoga App. No. 108209, 2019-0hio-4065. Reported at 159 Ohio St.3d 1413,
2020-Ohio-3276, 147 N.E.3d 647. On motion for reconsideration. Motion denied.
Appellant’s motion to expand the record and motion to strike memo opposing
motion for reconsideration denied.
French, J., dissents and would grant the motion for reconsideration as to
proposition of law Nos. I through III.
Donnelly, J., dissents and would grant the motion for reconsideration and the
motion to expand the record.
Stewart, J., dissents and would grant the motion for reconsideration.
2020-0377. State ex rel. Townsend v. Gaul.
In Prohibition. Reported at 159 Ohio St.3d 1411,2020-Ohio-3275,147N.E.3d 651.
On motion for reconsideration. Motion denied.
2020-0442. State v. Boayue.
Franklin App. No. 18AP-972, 2020-Ohio-549. Reported at 159 Ohio St.3d 1408,
2020-0hio-3174, 146 N.E.3d 586. On motion for reconsideration. Motion denied.
Donnelly, J., dissents.
2020-0449. Mowery, Youell & Galeano, Ltd. v. Stewart.
Franklin App. No. 20AP-076. Reported at 159 Ohio St.3d 1412, 2020-Ohio-3275,
147 N.E.3d 650. On motion for reconsideration. Motion denied. Appellant’s
motion for leave to proceed under R.C. 2323.52(F)(2) to file the accompanying
motion for reconsideration denied.
French, J., not participating.
2020-0615. RRL Holding Co. of Ohio, L.L.C. v. Stewart.
Franklin App. No. 20AP-044. Reported at 159 Ohio St.3d 1413, 2020-Ohio-3275,
147 N.E.3d 654. On motion for reconsideration. Motion denied. Appellant’s
motion for leave to proceed under R.C. 2323.52(F)(2) to file the accompanying
motion for reconsideration denied.
Kennedy, J., dissents.
Stewart, J., dissents and would grant the motion for leave.
French, J., not participating.

6

08-18-2020
9

Appendix B
Appendix
B

Judgement Entry
Docket no.
Court
Filed 6/17/2020
2020-0615
The Supreme Court of Ohio
2020-Ohio-3275
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart,
Jurisdictional Appeal Filed: 05/14/2020
Description: Appeal from 10th District Court of Appeals 20AP44 judgement of
2/20/2020.

10

Supreme (Ennrt ai (©Ipa

CASE ANNOUNCEMENTS
June 17,2020
[Cite as 06/17/2020 Case Announcements, 2020-Ohio-3275.]

MERIT DECISIONS WITH OPINIONS
2018-1814. State v. Pendergrass, Slip Opinion No. 2020-Ohio-3335.
Montgomery App. No. 27814, 2018-Ohio-3813. Judgment reversed.
O’Connor, C J., and Kennedy, DeWine, and Donnelly, JJ., concur.
Stewart, J., concurs in judgment only.
Fischer, J., dissents, with an opinion joined by French, J.
2019-0150. Lorain Cty. Bar Assn. v. Weir, Slip Opinion No. 2020-Ohio-3324.
On Certified Report by the Board of Professional Conduct, No. 2018-069. Jeffrey
Hile Weir II, Attorney Registration No. 0067470, last known business address in
Lorain, Ohio, indefinitely suspended from the practice of law.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0226. Butler Cty. Bar Assn. v. Blauvelt, Slip Opinion No. 2020-Ohio-3325.
On Certified Report by the Board of Professional Conduct, No. 2019-028. Scott
Nicholas Blauvelt, Attorney Registration No. 0068177, last known business address
in Hamilton, Ohio, suspended from the practice of law for two years, fully stayed on
conditions.
O’Connor, C.J., and French, Fischer, DeWine, Donnelly, and Stewart, JJ.,
concur.
Kennedy, J., not participating.

it

MERIT DECISIONS WITHOUT OPINIONS
2020-0377. State ex rel. Townsend v. Gaul.
In Prohibition. On respondents’ motions to dismiss. Motions granted.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0396. Moore v. Cook.
In Mandamus. On respondent’s motion to dismiss. Motion granted. Cause
dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0404. Moore v. Lucas Cty. Sheriffs Dept.
In Mandamus. On respondent’s motion to dismiss. Motion granted. Cause
dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0428. State ex rel. Hill v. Singer.
In Mandamus. On respondents’ motion to dismiss. Motion granted. Relator’s
motion to amend petition for writ of mandamus denied. Cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0480. State ex rel. Glover v. Young.
In Mandamus and Procedendo. On respondent’s motion to dismiss. Motion granted.
Relator’s motion to strike motion to dismiss denied. Cause dismissed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.
2020-0628. State ex rel. Armatas v. Hoffman.
In Mandamus and Prohibition. On respondents’ motion to dismiss. Motion granted.
Cause dismissed as moot.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly, and
Stewart, JJ., concur.

2

06-17-2020
12

MOTION AND PROCEDURAL RULINGS
2019-0457. State ex rel. Newsome v. Hack.
In Mandamus. On relator’s “motion to notify the Ohio Supreme Court that for the
3rd time Marion County Court has failed to comply with the order of writ.” Motion
denied. Respondent Karla Hack ordered to demonstrate a verifiable factual basis as
to whether this court’s February 5,2020 judgment has been or is able to be executed.
2020-0318. Davis v. Warden.
In Habeas Corpus. On petitioner’s “motion pursuant to Civ.R. 52 findings by the
court provide facts and findings and conclusions of law.” Motion denied.
2020-0449. Mowery, Youell & Galeano, Ltd. v. Stewart.
Franklin App. No. 20AP-076. On appellant’s motion for leave to file pursuant to
R.C. 2323.52(F)(2). Motion denied. Appellant’s motion for leave to proceed and to
file out of time denied as moot.
French, J., not participating.
2020-0483. State v. Conn.
Adams App. No. 19CA1094, 2020-0hio-370. On review of order certifying a
conflict. It is determined that no conflict exists. Cause dismissed.
Fischer, J., dissents.
2020-0511. In re Application of Duke Energy Ohio, Inc.
Power Siting Board, No. 16-0253-GA-BTX. On motion of appellants city of
Reading, village of Evendale, Patrick Ross, and David Waltz for stay pending
appeal. Motion denied.
Fischer, J., not participating.
2020-0615. RRL Holding Co. of Ohio, L.L.C. v. Stewart.
Franklin App. No. 20AP-44. On appellant’s motion for leave to proceed under R.C.
2323.52. Motion denied. Appellant’s motion to file memorandum in support of
jurisdiction out of time due to the pandemic denied as moot. Cause dismissed.
Kennedy and Stewart, JJ., would grant the motion to file memorandum in
support of jurisdiction out of time and would deny the motion for leave to proceed
under R.C. 2323.52 as moot.
French, J., not participating.

3

06-17-2020
13

APPEALS ACCEPTED FOR REVIEW
2020-0368. State v. Jones.
Hamilton App. No. C-170647, 2020-0hio-281.
French, Donnelly, and Stewart, JJ., dissent.
APPEALS NOT ACCEPTED FOR REVIEW
2020-0325. State v. Conn.
Adams App. No. 19CA1094,2020-0hio-370.
Kennedy, J., dissents.
2020-0438. State v. Workman.
Auglaize App. No. 2-20-04.
Donnelly and Stewart, JJ., dissent.
2020-0440. State v. Ward.
Franklin App. No. 19AP-266, 2020-Ohio-465.
Donnelly, J., dissents.
French, J., not participating.

4

06-17-2020
14

Appendix C
Appendix

Court
C
Tenth District Court of Appeals
02/20/2020
Franklin County, Ohio
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart________
Description: Request for reconsideration from Franklin County Ohio Court of
Common Pleas Civil Division, Case No. 18CV7212
Appendix | Judgement Entry
Docket no.
Court
Judgement Entry

Docket no.
20AP44

15

0A396 - Q27

IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
RRL Holding Company of Ohio,
LLCetal.,
Plaintiffs-Appellees,
O
O

o
o

o.
<

v.

No. 20AP-44

Merrilee Stewart,

(REGULAR CALENDAR)

O
CM

s

<

Defendant-Appellant.

O
T“

o

CM
JQ
«L)

JOURNAL ENTRY

U_

O
CM
O
CM

On December 20, 2019, appellant, Merrilee Stewart, was declared a

</»

+■*

3
O

o

vexatious litigator pursuant to R.C. 2323.52, and thereby prohibited from instituting
legal proceedings in this court without leave. On January 16, 2020, appellant filed a

o
«

<0
0)

a
a

<
o

motion for leave to proceed with this appeal as a vexatious litigator. By an entry filed on
January 23, 2020, we denied that motion finding that appellant had failed to establish
that there were reasonable grounds for allowing this appeal to proceed.

3

o

o
.2

On February 3, 2020, appellant filed applications to reconsider and re­

o

open this appeal, together with a motion for leave to proceed with said motions as a

•C

3
O

vexatious litigator. Appellant’s motion for leave to proceed fails to establish that there

c
a
c

are reasonable grounds for allowing her to proceed with either motion. Specifically,

o
1=

<0

u.

appellant's application for reconsideration of our denial of her initial motion for leave to
proceed with this appeal points to no obvious error or issue that we should have
considered in denying that motion. Mathews u. Mathews (1981), 5 Ohio App.3d 140
(10th Dist. 1982).

16

0A396 - Q28

Page 2

Case No. 20AP-44

Additionally, appellant’s application to re-open is frivolous on its face, as such relief is
only available in a criminal cases, App.R. 26(B).
Based on the foregoing, appellant's February 3, 2020 motion for leave to
rr

o
o
o
o
CL

proceed with her applications for reconsideration and to re-open is denied.

<

o
CM

2

<

o

*/>

Judge Susan Brown

o
CM
.Q
CD

LL

O
CM
O
CM

Judge Bet^y Luper'Schuster

3
O

o

4udge Jennifer Brunner

U'—

£

O

«

ra
a>

cc: Clerk, Court of Appeals

Q.
Q.

<

O
3
O

O

.2
•C

o

>.
3
O

o
c
c

CO
U-

17

0A396 - Q29

Court Disposition
Case Number: 20AP000044
Case Style: RRL HOLDING COMPANY OH ET AL -VS- MERRILEE
STEWART
O

o
o
o
OL

<

O

s

<
o
o
CM

<D

ll

o
CM
o
CM

Motion Tie Off Information:
1. Motion CMS Document Id: 20AP0000442
I950000
Document Title: 02-03-2020-MOTION FOR VEXATIOUS
LITIGATOR TO PROCEED - MERRILEE STEWART
Disposition: 3200
2. Motion CMS Document Id: 20AP0000442I
I970000
Document Title: 02-03-2020-APPLICATION TO REOPEN MERRILEE STEWART
Disposition: 3200

</>

■w

3
O

u
in

U

O

«

3. Motion CMS Document Id: 20AP0000442I
I980000
Document Title: 02-03-2020-MOTION FOR VEXATIOUS
LITIGATOR TO PROCEED - MERRILEE STEWART
Disposition: 3200

ra
<1)

Q.

a.
<
*o
iM

3
O

o

.2
£

o
>s

3
O

O

£
£

c
ra
u.

18

Appendix D
Appendix
D

Judgement Entry
01/23/2020

Docket no.
20AP44

Court
Tenth District Court of Appeals
Franklin County, Ohio
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart
Description: Appeal from Franklin County Ohio Court of Common Pleas Civil
Division, Case No. 18CV7212_____________________________________,

19

0A393 - G3

IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT

RRL Holding Company of Ohio,
LLC et al.,
Plaintiffs-Appellees,
rr
o
o
O
O

No. 20AP-44

v.

CL

<

o
cm

(REGULAR CALENDAR)

Merrilee Stewart,

2

0.
CO

Defendant-Appellant.

CO
04

c

CO

o
CM
o

JOURNAL ENTRY OF DISMISSAL

CM

V)
3

O

o
o

o
«

On December 20, 2019, appellant, Merrilee Stewart, was declared a
vexatious litigator pursuant to R.C. 2323.52, and thereby prohibited from instituting
legal proceedings in this court without leave. On January 21, 2020, appellant filed a
motion that we construe, in part, as a motion for leave to proceed as a vexatious

a
a>

litigator. Because appellant's motion fails to establish that there are reasonable grounds

<
o

for allowing this appeal to proceed, it is denied, and this appeal is sua sponte dismissed.

a.
a

The dismissal of this action renders all other pending motions moot, and we decline to

3

o

o
.9

address them. Appellant shall pay any outstanding appellate court costs.

■C

o

>.

c
3

o

p"

o
.E
2

C

C3

Judge

U_

Judge

Jwage

*

20

0A393 - 64

Court Disposition
Case Number: 20AP000044
Case Style: RRL HOLDING COMPANY OH ET AL -VS- MERRILEE
STEWART
o
o
o
o
O.

<

o
CM

Q.

co

Motion Tie Off Information:
1. Motion CMS Document Id: 20AP0000442
1910000
Document Title: 01-16-2020-MOTION FOR VEXATIOUS
LITIGATOR TO PROCEED - MERRILEE STEWART
Disposition: 3200

<r?
CO
CM
C
CO
“3

o
CM
O
CM

in

2. Motion CMS Document Id: 20AP0000442I
1900000
Document Title: 01-16-2020-MOTION FOR LEAVE TO FILE MERRILEE STEWART
Disposition: 3204

3

O

O
o

o
CO

o

Q.
Q.

<

O
3
O

O

.2
JZ

O

>.

c
3

O

o
.E
2

c
ra

LL

21

Appendix E
Appendix
E

Judgement Entry
01/23/2020

Docket no.
19AP202

Court
Tenth District Court of Appeals
Franklin County, Ohio
Case Caption: RRL Holding, et al. v. Stewart, et al.________________ _______
Description: Appeal from Franklin County Ohio Court of Common Pleas Civil
Division, Case No. 15CV1842 special proceedings_________________________

22

0A393 - E46

IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
RRL Holding Company of Ohio, LLC et al.,
Plaintiffs-Appellees,
v.
CM
O
CM

o
o
o

Merrilee Stewart,
(REGULAR CALENDAR)

0.

<

Defendant-Appellant,

O)

r*

Q.
CO

No. 19AP-202
(C.P.C. No. 15CV-1842)

TRG United Insurance, LLC,

CM

Defendant-Appellee.

CO
CM

c

(0
"3
O
CM
O
CM

DECISION

(!)

Rendered on January 23, 2020

3
O

o

On brief: Shumaker, Loop & Kendrick, LLP, James R.
Carnes, and Matthew T. Kemp, for appellees. Argued:
Matthew T. Kemp.

O

«
ra
a)
a.
Q.
<

On brief: Merrilee Stewart, pro se. Argued: Merrilee
Stewart.

O
3

o

APPEAL from the Franklin County Court of Common Pleas

o

.2
£

o

>.

e

3
O

O

£

£
c
ra
u.

DORRIAN, J.
(f 1} Defendant-appellant, Merrilee Stewart, has filed this appeal of the March 15,
2019 decision and entry of the Franklin County Court of Common Pleas overruling
appellant's objections to the magistrate's decision of December 21, 2018 and denying
appellant's motion for sanctions on Fritz W. Griffioen and Attorney James R. Carnes, Esq.,
and adopting the same magistrate’s decision. The notice of appeal addresses as well the
court's May 17,2017 decision and entry overruling appellant's objections to the magistrate's
decision of February 13,2017 and adopting the same magistrate's decision. These decisions
originate from the court's November 7, 2016 decision and entry. The November 7, 2016

23

0A393 - E47
No. 19AP-202

2

decision and entry and the May 17, 2017 decision and entry are now final and appealable
with the filing of the March 15, 2019 decision and entry. With these decisions, upon the
August 10, 2016 motion to show cause filed by plaintiffs-appellees RRL Holding Company
of Ohio, LLC ("RRL") and IHT Insurance Agency Group, LLC ("IHT") (collectively
"appellees"), the court found appellant to be in contempt of court and imposed sanctions
and attorney fees for the same. For the following reasons, we reverse in part, render moot
CM
O
CM
O

o
o
Q.

<
o>
CL

in part, and remand with instructions.
I. Facts and Procedural History
A. Context of Appeal
(f 2} The context of this appeal involves a dispute between the members of a

CO
CM
CO
CM
C
<0
O
CM
O
CM

(!)

limited liability company, RRL.1 RRL wholly owned and was the sole member of IHT.2
Appellant is listed as one of five members of RRL, each owning equal shares, named in
amendments to the operating agreement of RRL ("Operating Agreement") and in a
September 5,2012 buy/sell agreement of RRL ("Buy/Sell Agreement"), along with William
Griffioen, Fritz Griffioen, and Rodney Mayhill (collectively "remaining members") and

3

o

o

Norman L. Fountain.3 Whether appellant remains a member and owner of RRL is a subject

o

of the dispute. Until the dispute between the members of RRL arose, the members also

a
o

served as officers and on the board of managers for IHT. In their complaint, appellees state

ra

that appellant served as an officer of IHT until October 2014 and on IHT's board of

0)

a.
a

<
o

3
O

o
.2

-C

o

>.
3

o
o
.2
2
c

(0

lj-

managers until December 20, 2014.
{f 3} On March 2, 2015, appellees filed a complaint against appellant alleging she
had formed a new company, TRG United Insurance, LLC ("TRG"), which operated in
violation of a non-compete provision included in the Buy/Sell Agreement. The complaint
further alleged that TRG was using as its headquarters the same address as IHT and the
resources and staff of IHT to operate TRG. In October 2014, the remaining members voted
1 Appellees informed the court that, in December 2018, RRL merged with Firefly Insurance Agency ("Firefly")
and that Firefly is the successor to RRL. For purposes of this appeal, however, we will refer to RRL, rather
than Firefly, to reflect the name of the entity during the period of time relevant to this appeal.
2 Appellees informed the court that IHT is now known as Firefly. For purposes of this appeal, however, we will
refer to IHT, rather than Firefly, to reflect the name of the entity during the period of time relevant to this
appeal.
3 Fountain subsequently redeemed his membership interest and is no longer a member of RRL.

24

0A393 - E48
No. 19AP-202

3

to suspend appellant from her position with IHT and, in December 2014, the remaining
members and appellant attempted to negotiate redemption of appellant's interest in RRL
pursuant to the Buy/Sell Agreement. On December 30, 2014, notice was provided to
appellant that she had been removed from RRL and her relationship with IHT had been

CM
O
CM
O

o
o
Q.

<

o
r*
CL
CO
CM
CO
CM
C
(0

o
CM
o
CM

(ft

terminated. The complaint alleged breach of fiduciary duties, negligence, conversion,
defamation/libel/slander, replevin, and requested a preliminary injunction. Appellees also
filed a separate motion for preliminary injunction.
{f 4} Appellant moved to dismiss the complaint. Appellees amended their
complaint on May 4, 2015, supplementing the general allegations and deleting the claims
of negligence and defamation/libel/slander. The trial court denied appellant's motion to
dismiss on May 28, 2015 finding the amended complaint had cured the deficiencies of the
original complaint which appellant alleged in her motion.
{f 5} Appellant filed an answer and counterclaim to the amended complaint on
May 18,2015. In her counterclaim, appellant alleged the remaining members did not follow
the requirements of the Operating Agreement and Buy/Sell Agreement to remove her as a

3

O

O
o
£

member. She alleged several counts of breach of contract relating to the Operating
Agreement, health insurance, commissions and life insurance, several counts of promissory

£

estoppel relating to health insurance, commissions and life insurance, and one count of
defamation. Appellant also filed a memorandum contra to the motion for preliminary

<

injunction. Appellees filed a reply to the counterclaim on June 12, 2015.

O

{f 6} Relevant to this appeal, on May 28, 2015, the parties filed an agreed entry as
to appellees' motion for preliminary injunction ("Agreed Entry"), and appellees withdrew

O
(0
0>
Q.
Q.

3

O

o

.2
£

o

>.
c

3

o
o
£
£

c
n

u.

their previously filed motion for preliminary injunction. The issues before this court today
involve compliance with the Agreed Entry. The specific terms of the Agreed Entry will be
discussed forthwith.
{f 7} On July 20, 2015, appellees moved to compel arbitration and stay litigation
pursuant to the parties Buy/Sell Agreement. Appellant filed a memorandum contra on
August 13, 2015. On November 10, 2015, the court ordered the parties submit their
affirmative claims against each other and defenses to binding arbitration and stayed claims
against TRG, including TRG's defenses pending resolution of the arbitration process.

25

0A393 - E49
No. 19AP-202

4

B. Appellees' August 10, 2016 Motion to Show Cause
{f 8} On August 10,2016, appellees filed one of numerous motions over the history
of this case for an order to show cause as to why appellant should not be held in contempt
of court for violating the terms of the Agreed Entry. The court's ruling on the August 10,

CM
O
CM
O

o
o

2016 motion to show cause is the narrow subject of this appeals As relevant here, the
Agreed Entry provides:
NON-AFFILIATION

Q.

<
o>

I. Defendants Stewart and TRG, agree to refrain from:

m

a. representing to any person, business, or entity that
Defendants
are
employees,
agents,
authorized
representatives, producers, officers, managers or doing
business as, or in any way working with or for, Plaintiffs IHT
or RRL;

Q.

CO
CM
CO
CM

c

<0
“D

o
CM
O
CM

(!)

b. making any representation that TRG is located at, or
operating or doing business from IHT or RRL's offices at 6457
Reflections Drive, Dublin, OH 43017, or

3

o

o
o
£

o
(a

0
CL

a

<
o

3
O

o
.2
£
o

>.

c
3
o

***

d. representing to any person, business, or entity that
Defendant Stewart has any authority to enter into any
business arrangements, agreements, contracts, or
transactions that in any way affects IHT or RRL.
(Agreed Entry at 2-3.)
{f 9} The Agreed Entry also provided for: (1) preservation of appellant's data and
information from her IHT e-mail and telephone; (2) appellant refraining from accessing,
transferring, moving, or changing any IHT financial account with any financial institution;

o
.2
2
c

2
u.

4 Although in responding to the August 10,2016 motion before the trial court, as well as in her briefing before
this court, appellant argued the merits of her counterclaim and appellees' amended complaint, we decline to
address the merits of the counterclaim and amended complaint as that was the subject of arbitration.
Furthermore, we do not address the trial court's rulings also included in the March 15, 2019 decision and
entiy: (1) granting motion of appellees to show cause filed March 7, 2018, (2) denying appellant's motion to
show cause filed March 20, 2018, (3) denying as moot appellant's motions to stay filed March 11, and
October 26, 2018, (4) granting motion of appellees to show cause filed January 11, 2019, and (5) denying
appellant's motion for sanctions on Fritz and Carnes filed January 27,2019. Furthermore, as explained later
in our discussion regarding the seventh assignment of error, parts (A) and (B), we decline to address the
court’s decision denying appellant's motion for sanctions filed September 18, 2017. The court denied this
motion on December 12,2017.

26

0A393 - E50
No. 19AP-202

5

(3) appellant not engaging in solicitation for purposes of establishing business relationships
to sell or provide any insurance coverage unless appellant was the identified producer while
working at IHT and not sharing or using IHT's trade secrets or confidential business
information; and (4) appellees agreeing to forward to appellant her mail and e-mail that is
not related to IHT or RRL customers or business operations.
CM
O
CM
O

o
o
Q.

<
O)
Q.
CO
CM
CO
CM

c

CO
"9

o

CM
O
CM

</)

{f 10} Appellees claimed appellant violated the Agreed Entry by claiming to be an
owner and authorized agent of IHT and RRL to: (1) the Ohio Civil Rights Commission ("civil
rights commission"); (2) the Columbus Police Department ("police"); (3) Hartford
Insurance ("Hartford"); and (4) Liberty Mutual Insurance ("Liberty") (collectively
"insurance companies"). Appellant filed a memorandum contra claiming the Agreed Entry
was moot "given the dismissal of this matter pending arbitration," and because "[t]his
action is no longer pending with respect to the claims ordered to arbitration." (Emphasis
added.) (Aug. 24, 2016 Memo. Contra at 3, 5.) In the alternative, appellant argued,
assuming, arguendo, that the Agreed Entry is still in effect, she did not violate the spirit or
intent of the Agreed Entry as it was intended to address business interests. Appellant

3

O

o

argued her communications as alleged by appellees have nothing to do with the business
associations and relationships between and among her and appellees. Specifically,

o

appellant argued: (1) the claim of discrimination she filed with the civil rights commission

CO
CD
Q.
Q.

is not in violation of the Agreed Entry and, if it were, that would preclude her from filing a
counterclaim in the arbitration; (2) the report filed with police involved alleged
embezzlement in the form of unpaid agent commissions which occurred between May 1,

o

<

O
3

O

o

2005 and May 1, 2015 before the Agreed Entry was entered and, therefore, explains that
appellant was working with IHT at the time of the reported embezzlement; and (3) the
claims filed with the insurance companies are not for the purposes of engaging in
competition or engaging in a business transaction on behalf of appellees; rather, appellant

.2
2

is reporting her interest in appellee to support her allegations of embezzlement and

o

.2
•C

o

>.

c

3
O

c
ra

u.

fraudulent concealment in unpaid agent commissions. Appellees filed a reply
memorandum.
C. Appellant's August 24, 2016 Motion to Show Cause and Request for
Sanctions, and Appellees' Request for Sanctions and Attorney Fees for
Having to Respond to the Same

27

0A393 - E51
No. 19AP-202

6

{f 11} In addition to her memorandum contra appellees' August 10,2016 motion to
show cause, on August 24, 2016, appellant filed a motion to compel appellees to file
arbitration and a motion to show cause why they should not be held in contempt for
willfully failing to comply with the court's November 10, 2015 entry ordering the parties to

CM
O
CM
O

o
o
CL

<
o>

submit their affirmative claims and defenses to binding arbitration. Appellant noted
appellees moved for arbitration in the first place, and as of August 24,2016 had not yet filed
any proceeding with the American Arbitration Association ("AAA"). On August 31, 2016,
appellees filed a memorandum contra which provided a detailed outline of appellees' efforts
to comply with the order and begin the arbitration process. Appellees argued that

CM

appellant, her frequent changes in representation, and the inaction of her various attorneys
were to blame for the delay. Appellees requested appellant be sanctioned and be required

CO
CM

to pay attorney fees which appellees incurred in responding to the motion to compel

Q.
CO

c

(0
©
CM

o
CM

</)
3
O

arbitration. Appellant filed a reply arguing appellees did not pursue arbitration with AAA
but, rather, proceeded as if they were only required to have the arbitration conducted
pursuant to AAA rules. According to appellant, on August 2,2016, appellees agreed to AAA

o

arbitration and to file within the next week, but had neglected to file anything with AAA as

o

of September 6, 2016. Appellant requested attorney fees incurred by her in filing the

o

motion to compel arbitration. Appellees filed a supplemental memorandum in support of
their request for sanctions stating they had agreed to AAA arbitration "despite there being
no requirement to do so." (Footnote omitted.) (Oct. 21, 2016 Supp. Memo, in Support of
Mot. for Sanctions at 2.) Appellees further stated they had submitted a demand for

<2
m
a>

a
a

<
o

3

o

o
.2

£

O

arbitration to AAA on September 8, 2016, that appellant's counsel indicated he would
advise appellant to withdraw her motion to compel arbitration, and he would be in touch

c
3
o

o

the following Monday. Appellees finally stated that appellant's counsel did not follow up
and appellant did not withdraw her motion despite knowledge it was moot. Appellees again

.£
2

requested attorney fees.

c

<0
LL

{f 12} On October 27, 2016, appellant withdrew her motion to compel arbitration
but did not withdraw her motion to show cause why appellees should not be held in
contempt for failing to abide by the November 10, 2015 entry. Appellant also stated that
appellees' initial demand for arbitration with AAA did not move forward because it was

28

0A393 - E52
No. 19AP-202

7

deficient and it was not until October 11, 2016 that appellant received a notice from AAA
that the filing requirements had been met.
D. The Magistrate’s and Court’s Rulings on Appellees' August 10,2016 Motion
to Compel; Appellant's August 24, 2016 Motion to Compel and Request for
Sanctions; and Appellees’ August 31, 2016 Request for Sanctions and
Attorney Fees in Responding to Appellant's August 24, 2016 Motion to
Compel
CM
O
CM
O

o
o
Q.

<

O)

S

0.
CO
CM

co
CM
c
ra

1. Court’s initial finding of violation
{f 13} On November 7, 2016, the trial court filed a decision and entry: (1) granting
appellees' motion to show cause why appellant should not be held in contempt for violating
the Agreed Entry; (2) denying appellant's motion to compel arbitration and motion to show
cause why appellees should not be held in contempt for violating the November 10, 2015
entry ordering arbitration^ and (3) granting appellees' motion for sanctions and attorney

”9

fees incurred in having to respond to appellant's motion to compel arbitration and motion

O
CM
O
CM

to show cause.6

in

{f 14} The court first determined the Agreed Entry was not moot. The court then

3

o

o
o
a
O

«
re
re

Q.
Q.

<

O
3

O

o
.2
■C

o
c

3

O

o
.2
2

c
re

LL

determined appellees' motion for an order to show cause why appellant should not be held
in contempt was well-taken. The court agreed that appellant had violated the terms of the
Agreed Entry as follows:
The first alleged violation involves a claim and appeal which
Stewart filed with the Ohio Civil Rights Commission. Exhibit A
to Plaintiffs' motion is a Letter of Determination upon
Reconsideration which sets forth Stewart’s claim that she was
treated unfairly by Plaintiffs as a result of her gender and
religion. The Commission notes in its Letter: "Although her
charge alleges that she was constructively discharged, she now
denies this in her request for reconsideration, claiming that 'I
am now and remain a member/owner' of Respondent [IHT]. I v
For the second violation, Plaintiffs cite to a report Stewart filed
with the Columbus Police Department. (Motion, Ex. B). On
July 27, 2016, Stewart reported that she, as a representative of
IHT, was the victim of a $5-10 million embezzlement scheme
orchestrated by IHT's human resources manager. Finally, as to
5 Appellant does not address this ruling in her assignments of error and, therefore, we will not address the
same.
6 Appellant does not address this ruling in her assignments of error and, therefore, we will not address the
same.

29

0A393 - E53
No. 19AP-202

8

the third and fourth violations, Plaintiffs submit a series of
emails between Stewart and Plaintiffs' insurance carriers, in
which Stewart seeks compensation for employee dishonesty
through Plaintiffs insurance policies (Motion, Ex. C).
The Court agrees that each of these actions violated the terms
of the parties' May 28, 2015 Agreed Entry.
CM
O
CM
O

o
o
Q.
<

O)

Q.
CO
CM
CO
CM

c

<0

o
CM
o
CM

</>
3

o
O

o
a

o
a

0>

a
a

<
o

3

o

o
.2
•C

o
c
3
o

o
.2
2
c

2

(Nov. 7, 2016 Decision & Entry at 4-5.)
15} Next, the trial court considered the timeline presented by appellees regarding
their efforts to begin the arbitration process and noted appellant did not dispute the same.
The court concluded: (1) appellees had been attempting for many months to pursue
arbitration and that appellant was in fact the dilatory party, and (2) the parties Buy/Sell
Agreement did not require the parties to request arbitration through AAA The trial court
accordingly denied appellant's August 24,2016 motion to compel and request for sanctions.
It also found to be well-taken appellees' request for sanctions against appellant and her
counsel and for attorney fees incurred in having to respond to appellant's motion to compel
and motion to show cause. The court noted appellees agreed to AAA arbitration despite no
contractual obligation to do so and that appellant and her counsel never withdrew the
motion to compel even though counsel indicated he would advise appellant to withdraw the
motion.
{f 16} Finally, the court referred appellees' motion to show cause to a magistrate
and ordered appellant to appear and show cause why she should not be held in contempt
of court for violating the Agreed Entry as appellees alleged in their August 10, 2016 motion.
The court indicated that at the show cause hearing it would consider the appropriate
sanctions against appellant for the filing of the motion to compel arbitration and motion to
show cause.
2. Magistrate's February 8.2017 hearing. February 13.2017 decision, and trial
court's May 17. 2017 overruling of objections and adopting the magistrate's
decision

u.

{f 17} On February 8, 2017, the magistrate held a show cause hearing. On
February 13, 2017, the magistrate filed a decision recommending appellant be held in
contempt of court and that sanctions be imposed. The magistrate found as follows: (1) the
civil rights commission dismissed appellant's claim based on appellant's statement that "I

30

0A393 - E54
No. 19AP-202

9

am now and remain a member/owner of IHT," appellant denied she made that statement,
and the magistrate found the denial to be unavailing as appellant had been sent a copy of
the civil rights commission's dismissal letter based on the same statement and she did
nothing to object to the civil rights commission's assertion (Feb. 13, 2017 Mag. Decision at
1.); (2) the police report listed IHT and IHT's address as the victim of alleged embezzlement,
CM
O
CM
O

o
o
Q.

<

appellant claimed the officer taking the report erroneously entered IHT as the victim and
that she had not seen the report, and the magistrate found appellant's explanation as not
worthy of belief as appellant did nothing to clear up the error, gave the police report number

o>

to a Columbus Dispatch reporter, and a person claiming to be a victim of $5-10 million

Q.
CO
CM

dollars would have followed-up with police to see how the claim was progressing;
(3) appellant claimed she filed claims with the insurance companies on the advice of

CO
CM

counsel, however, the attorney upon whose advice appellant claimed to have relied did not

<M
c

CO

o
CM
o
CM

in

appear at the hearing, and the magistrate found that reliance on the erroneous advice of
counsel is not an excuse for violating the Agreed Entry; and (4) appellant has not
demonstrated sufficient factual or legal reasons why she should not be held in contempt of

3

o

O

court for her actions. The magistrate recommended that appellant should be allowed to

O

purge her contempt by compensating appellees for the legal fees incurred in prosecuting
the contempt action. 7

£

o
<0
0)
Q.
Q.

<

O

(f 18} Appellant filed the following objections to the magistrate's decision on
February 27, 2017: (1) the Agreed Entry does not prohibit appellant from representing
herself as a "member" or "owner" and whether she is a "member" or "owner" is the subject

3

o

o
.2
£

O

of adjudication in the arbitration; (2) appellant did not violate the spirit of the Agreed Entry
which is to prohibit appellant from holding herself out to third parties as having authority

o

to transact the business of RRL or IHT; (3) the court was required to hold a hearing
pursuant to R.C. 2705.02(A); (4) prior to adjudicating appellant to be in contempt of court

.2
2

in its November 7, 2016 entry, the court erred in not permitting appellant to present

2

evidence or argument or to rebut the court's preliminary adjudication of contempt; (5) the
magistrate's determination that appellant's claim before the civil rights commission

3
O

c

LL

violated the Agreed Entry was in error because: (a) the civil rights commission's letter of
7 The magistrate did not address at this time the sanction or amount of attorney fees appellant should pay to
appellees for their time in having to respond to appellant’s August 24,2016 motion to compel and show cause.

31

0A393 - E55
No. 19AP-202

10

determination upon reconsideration was the only evidence presented and it was
impermissible hearsay per Evid.R. 801 and 802; (b) no other evidence was presented that
appellant made the representation she was a member or owner of RRL; (c) discrimination
was the issue before the civil rights commission, not appellant's "membership" or

CM

o
Csl
o
o
o
CL

<

"ownership" interest and, therefore, there was no reason to object to the civil rights
commission's statement; and (d) appellant had exhausted her administrative remedy and
thus could not object to the civil rights commission's statement other than to appeal; (6) the
magistrate's determination that appellant listing IHT as the victim of embezzlement in the

o

police report violated the Agreed Entry was in error because: (a) the only evidence was the

Q.
CO
CM

unsigned police report; (b) appellant testified she verbally made the report and would not
have provided IHT's address as her own; (c) appellant testified she was not given a copy of

CO
CM

the police report and even if she had, the address seemed trivial as to whether an amended

c

<0

o
CM
o
CM

(!)

report was necessary; (d) the magistrate speculated as to whether a victim of embezzlement
would follow-up to see how the case was progressing; and (e) appellant herself is the victim
of embezzlement and she filed the report on her own behalf and not on behalf of IHT or

3

O

O

RRL; and (7) the magistrate's determination that appellant's filing of two insurance claims
alleging that she is an owner or member of RRL violated the Agreed Entry was in error

£>

O

<2

<0

o

Q.
Q.

<

O

because: (a) appellant testified she filed the insurance claims on her own behalf and not on
behalf of IHT or RRL; (b) she filed the claims on the advice of counsel; and (c) appellant
specifically informed Hartford in the July 20,2016 e-mail that she is an "estranged member
and owner of IHT/RRL." (Aug. 10, 2016 Appellees' Mot. to Show Cause, Ex. C, Apx. 2.)

3

O

o
.2
.c
O

>.
3

{f 19} Appellees filed a response to the objections on March 9,2017, a supplemental
response to the objections, a motion for sanctions, and another motion to show cause on
May 15, 2017.

o

o

{f 20} On May 17, 2017, the trial court overruled the objections and adopted the

.2
2

magistrate's decision. The court found that at the February 8, 2017 hearing before the
magistrate, appellant, rather than show cause why she should not be held in contempt of

c

<0

u.

court, sought to relitigate the terms of the parties Agreed Entry and the court's ruling that
she had violated its terms. The court found that in its November 7,2016 decision and entry
it had determined appellees had met their initial burden to demonstrate by clear and
convincing evidence that appellant had violated the Agreed Entry but then provided

32

0A393 - E56
No. 19AP-202

11

appellant an opportunity to rebut appellees' initial showing. The court disagreed that
appellant rebutted appellees' showing and found that "[appellant's] testimony was wholly
implausible and belied by the documents presented at the hearing." (Nov. 7,2016 Decision
at 4.) As to the civil rights commission claim, the court found appellant's objection based
on hearsay was not well-taken as it was not made at the time the civil rights commission's
report was admitted, the report was a public record, and appellant's statement is the
CM
O
CM
O

o
o
CL
<

admission of a party-opponent.

The court further agreed with the magistrate that

appellant's position was mavailing. As to the filing of the police report, the court noted the

CD

report lists IHT as the victim and the victim type as a business, and further identifies

CL

appellant's employer as IHT and lists IHT's address as her employer's address. The court

CO
CM
CO
CM
C

ca

o
CM
O
CM

<J>

found to be, at best, wanting, appellant's explanations that she had not seen the report. As
to the insurance company claims, the court noted appellant was an insurance professional
and would have understood the insurance policies were for losses suffered by IHT and not
for herself personally. The court found appellant's position that she did not realize she was
holding herself out as a representative of IHT to not be credible. The court adopted the

3

O

O

magistrate's decision recommending imposition of sanctions.8 The court referred to the
magistrate the determination of: (1) the appropriate sanctions for appellant's four separate

*

o

violations of the Agreed Entry, including, but not limited to, legal fees expended by

<0
<D
Q.
Q.

appellees in the prosecution of their motion to show cause dated August 10, 2016, as well

O

show cause dated August 24, 2016.9

<

■w

as (2) the appropriate sanctions for appellant's failure to withdraw her frivolous motion to

3

O

o

.2
x:
O
>.
3
O

o
£
£
c
ra

u.

In the same entry, the court considered appellees' new motions to show cause and for sanctions filed on
March 9, and May 15, 2017. In the new motions, appellees alleged appellant lied under oath during the
February 8, 2017 hearing before the magistrate regarding the August 10, 2016 motion to show cause. The
court found the motions to be well-taken and referred to the magistrate the determination of whether
appellant should be held in contempt for her false testimony at the February 8,2017 hearing and, if so, the
appropriate sanction. In the December 21, 2018 decision, the magistrate found that appellant failed to show
cause why she should not be held in contempt for her false testimony and that as a direct and proximate result
of this contempt, appellees had incurred reasonable and necessary attorney fees in the amount of $3,996.
Without any specific discussions regarding the same, the trial court adopted the magistrate's decision in full
on March 15, 2019. We do not address the court's findings regarding the March 9 and May 15, 2017 motions
to show cause and for sanctions at this time as appellant did not address this in her brief before the court. We
note, however, that appellant's September 18, 2017 notice may provide additional context to appellant's
statements made at the February 8,2017 hearing.
8

9 Appellant does not address this ruling in her assignments of error and, therefore, we will not address the
same.

33

0A393 - E57
No. 19AP-202

12

{f 21} Appellant appealed the court's May 17, 2017 decision overruling her
objections and adopting the magistrate's decision. On June 30, 2017, this court dismissed
the appeal as sanctions had yet to be fully determined and we lacked jurisdiction to hear
the appeal. See RRL Holding Co. of Ohio, LLC v. Stewart, 10th Dist. No. 17AP-410
(June 28, 2017), Journal Entry of Dismissal.
E. Arbitration
CM
O
CM
O

o
o
CL
<

{f 22} On December 11,2017, a three-member arbitration panel issued a final award
granting appellees' claim for declaratory relief, ordering appellant to execute certain

0>

documents in furtherance of the finding that she was properly removed as a member of

CL
co

RRL; denying the balance of appellees' claims; and denying appellant's counterclaims in

CM

their entirety. Appellees filed a motion to confirm the arbitration award on December 18,

CO
CM
C

2017. Appellant objected and moved to modify, vacate, or correct in part the final award

“3

on January 1, 2018.10 The trial court confirmed the award in all respects on February 5,

O
CM
O
CM

(!)

2018.11 On February 15, 2018, appellant filed a notice of appeal of the trial court's
February 5, 2018 order confirming the arbitration award. On September 28, 2018, this

3

O

O

o
£

o
*
(0
0)
Q.
Q.

<
O
■w

court affirmed the trial court's February 5, 2018 order. This court noted that appellant did
not file a transcript and has not demonstrated a valid reason to vacate the arbitration award.
See RRL Holding Co. of Ohio, LLC v. Stewart, 10th Dist. No. 18AP-118, 20i8-Ohio-3956.
Appellant appealed to the Supreme Court of Ohio. On December 26, 2018, the Supreme
Court declined to accept jurisdiction of the appeal. (S.Ct. No. 2018-1618, see 2018-Ohio5209.) On March 14, 2019, the Supreme Court denied appellant's motion for

3

oO

reconsideration of the same. (S.Ct. No. 2018-1618, see 2019-OM0-769.)

.0
£

o

>.
c
3
O

O

£
£
c
ra
LL

10 On January 8, 2018, appellant also filed a notice of appeal from the trial court's November 10, 2015 entry
granting in part appellees' motion to stay proceedings pending arbitration. Appellant argued the
November 10, 2015 entry was now subject to appeal as the final arbitration award was issued December 11,
2017. On February 1,2018, this court dismissed appellant’s appeal as an order granting or denying a stay of
trial pending arbitration is a final order subject to immediate appeal and therefore appellant's appeal of the
same was untimely and must be dismissed for lack of jurisdiction. RRL Holding Co. of Ohio, LLC v. Stewart,
10th Dist. No. 18AP-27 (Feb. 1,2018) (Journal Entry of Dismissal).
11 On March 7,2018, appellees filed a motion to show cause as to why appellant should not be held in contempt
for failing and refusing to comply with the court's February 5, 2018 order confirming the final arbitration
award by failing to execute documents within 30 days by January 10,2018 as ordered by the court. As noted
previously, in the March 15, 2019 decision and entry, the trial court found the March 7, 2017 motion to be
well-taken and ordered that a hearing will be set for appellant to oppose and show cause why she should not
be held in contempt.

34

0A393 - E58
No. 19AP-202

13

F. September 18, 2017 Notice of Supplemental Information
{f 23} On September 18, 2017, a magistrate conducted a show cause hearing as
directed by the trial court in its May 17, 2017 decision. Early in the morning on the same
day as the hearing, appellant filed a notice of supplemental information and exhibits
thereto for an evidentiary hearing of September 18,2017 ("September 18,2017 Notice") and
motion for attorney sanctions ("sanctions motion"). Appellant stated therein that she was
CM
O
CM
O

o
o
CL

<

providing "newly acquired information" including, among other items: (1) the original 32page complaint she filed with the civil rights commission; (2) a summary of a narrative

O)

appellant states she submitted to police; (3) documentation showing advice of counsel to

CL

update her insurance claims; (4) copies of e-mails of appellant's then-counsel indicating

co
CM

counsel's opinion that the injunction was no longer in effect; and (5) copies of e-mails

CO
CM

between appellant and the insurance companies. In her conclusion, appellant moved the

c

(0
"D

o
CM
O
CM

*■»

3
O

o
o

£

a
O
re

<ua.

a
<
o
3

o

o
.2
•C

court "to consider this supplemental information." (Sanctions motion at 22.)
G. Magistrate's and Court's Ruling on Appellees' August 10, 2016 Motion for
Show Cause, Attorney Fees, and Sanctions
(f 24} In her December 21, 2018 decision, the magistrate noted that the court's
order of reference was to make the following determinations:
a) The appropriate sanction(s) for [appellant's] four separate
violations of the Agreed Entry, including but not limited to
attorney fees expended by Plaintiffs in the prosecution of their
August 10, 2016 show-cause motion;
b) The appropriate sanction(s) for [appellant's] failure to
withdraw her frivolous show-cause motion filed on August 24,
2016; and

o

>

.2
2

c) Whether [appellant] should be held in contempt for her
false testimony at the hearing before [a Magistrate] on
February 8,2017, and if so, the appropriate sanction(s) for her
contempt.

u.2

(Dec. 21, 2018 Magistrate's Decision at 5, U19.) The magistrate noted appellant appeared

c
3
O

o
c

and testified at the hearing on September 18, 2017, and that she was not credible. The
magistrate further noted appellees appeared and presented testimony of their attorney,
Carnes, and the magistrate found Carnes to be very credible. The magistrate also found
appellant attempted to relitigate at the hearing the court's prior determination that she had

35

0A393 - E59
No. 19AP-202

14

violated the Agreed Entry on four separate occasions and she had provided false testimony
on February 8, 2017. The magistrate found appellees presented credible evidence and
argument to support an award of sanctions for appellant violating the Agreed Entry and for
failure to withdraw her frivolous motion to compel arbitration and show cause, and that .
appellant presented no credible evidence or argument to challenge an award of sanctions
or show cause why she should not be held in contempt. The magistrate found that as a
CM
O
CM
O

o
o
Q.
<
o>
2

CL

direct and proximate result of four separate violations of the Agreed Entry and her failure
to withdraw her motion to compel and motion to show cause, appellees incurred reasonable
and necessary attorney fees in the amount of $18,068.08. The magistrate further found
appellees incurred reasonable and necessary attorney fees in the amount of $2,130.00 and

CO
CM

$2,840.00 as a direct and proximate result of appellant's eleventh-hour filing of her appeal

CO
CM

on June 6, 2017, which resulted in cancellation of the previously scheduled June 7, 2017

c

magistrate hearing and having to prepare and participate in the hearing before the
O
CM
O
CM

<!>

magistrate on September 18, 2017 respectively.
{f 25} The magistrate recommended that, pursuant to R.C. 2705.05, the court

3

O

o
o

should impose the following fines upon appellant: $250, $500, $1,000 and $1,000 for

O

magistrate further recommended that appellees are entitled to recover attorney fees in the

(0
0)
Q.

a.

<
o

appellant's first, second, third, and fourth violations of the Agreed Entry respectively. The
total amount of $27,034.o812 from appellant.
{f 26} On January 4, 2019, appellant filed objections to the magistrate's decision
along with a motion for sanctions on Fritz and Carnes. In the objections, appellant provided

3

O

o

.2
sz
O
>
c
3
O

O
.2
2
c
ra
LL

her summary of background on appellant, appellees, arbitration, a federal case and other
investigations involving the parties. Appellant complained the magistrate did not consider
the supplemental information evidence appellant filed on September 18, 2017.

The

objections did not, however, address the magistrate's December 21, 2018 decision
regarding the imposition of sanctions and attorney fees and the recommended sanction and
attorney fee amounts. Rather, appellant's objections addressed the court's November 7,

12 The magistrate also found appellant failed to show cause why she should not be held in contempt for her
false testimony at the February 8, 2017 hearing and as a direct and proximate result of the same, appellees
had incurred reasonable and necessary attorney fees in the amount of $3,996.00. Adding the $3,996.00 to
the amounts noted above, the magistrate determined appellees had incurred reasonable and necessary
attorney fees in the total amount of $27,034.08. See fa. 9.

36

0A393

E60
No. 19AP-202

15

2016 decision granting the motion to show cause and finding that appellant had violated
the Agreed Entry and the magistrate's decision of February 13, 2017 and the trial court's
adoption thereof on May 17, 2017. Appellant reiterated the objections and arguments
which she made in her February 27, 2017 objections to the magistrate's February 13, 2017

CM
O
CM
O

o
o

<

o>
Q.

decision. The objections also addressed the reasons for appellant's failing to execute the
terms of the arbitration agreement—which is the subject of a different motion to show cause
filed by appellees on March 7, 2018—not the subject of the magistrate's decision of
December 21, 2018 or this appeal. Finally, appellant asked the trial court to impose
sanctions on Fritz and Carnes. Appellant did not file a transcript with her objections.
Appellees filed a response.

CO
CM

{f 27} On March 15, 2019, the trial court overruled appellant's objections and

CO
CM

adopted the magistrate's December 21, 2018 decision. The court noted appellant's

c
o
CM
o
CM

0)
3

O

o

objections again sought to relitigate the court's prior rulings and were not an objection to
the appropriateness of the sanctions or to the amount. The court summarily concluded that
appellant's objections were without merit and adopted the magistrate's December 21,2018
decision.

o

{f 28} On April 8, 2019, appellant filed a notice of appeal. Consistent with her

o

repeated efforts to address the findings in the court's November 7,2016 decision and entry,

ra
ra
o.

the magistrate's decision of February 13, 2017 and the court's adoption of the same on

Q.

May 17, 2017, appellant noted in her notice of appeal that "[tjhis appeal is derived from the
original decision and entry of May 17,2017, however because the issue of sanctions had yet

<

O
3
O

o

to be fully determined, the May 17, 2017 decision and entry did not constitute a final

.2
JC
O
>.

appealable order." Accordingly, appellant's assignments of error address the findings in
the November 7, 2016 decision and entry, the February 13, 2017 magistrate's decision,

3

£
£

May 17, 2017 decision and entry, the December 21, 2018 magistrate's decision, and the
March 15, 2019 decision and entry to the extent they address the findings of four violations

LL

of the Agreed Entry and the imposition of sanctions and attorney fees for the same, as well

O

o

c
ra

as her repeated rejected efforts to move the court to reconsider the same. We limit our
analysis accordingly.

37

0A393 - E61
No. 19AP-202

16

II. Assignments of Error
{f 29} Appellant appealed and assigns the following seven assignments of error for
our review:

CM

o
CM
O

o
o
Q.

<

0>

s

Q.
CO
CM
CO
CM

c

<0

o
CM
o
CM

</)

■w

[I.] The courts enforcement of an agreed upon Preliminary
Injunction compels Appellate to lie to the investigative
authorities and conceal criminal activity which violates the
constitution rights of the Appellate and promotes the
obstruction of justice.
!

■

[II.] The courts levy of sanctionsfor the protected activity of
reporting a crime is adverse action which violates state and
federal laws designed to protect the whistleblower, Appellant
Merrilee Stewart.
[III.] The courts judgement erred in the facts, without hearing
or consideration of the reliable, substantial evidence
contained in the supplemental documentation and thus made
judgement on hearsay documents of others and a perjured
affidavit which violates the due process rights of the Appellate
and Ohio Rule of Evidence 803.

3

O

o

o

£

£

o
£

<0
0)
Q.

a

<
o

3

o

o
.2
£
o
c
3
o

o
.£
2
c

2

Li.

[IV.] The courts erred in the enforcement of a four-year-old
agreed upon preliminary injunction with no emergent status
because all claims were sent to the jurisdiction ofArbitration
and cases should not be split, wherefore relief sought,
including equitable and/or preserving the status quo belong
in Arbitration pursuant to the FAA, the Supreme Court and
case law.
[V.] The court erredjudgment of the attorneyfees to the RRL
attorney because as an unredeemed owner in RRL
Defendant Appellate Merrilee Stewart is already paying a
proportionate amount of the attorneyfeesfrom the profits of
RRL, which violates the principles of promissory and judicial
estoppel.
[VI.] The actions of Defendant-Appellate were on the advice
of counsel and therefore she acted in good faith with no
wrongful intent. Any sanctions rendered are prejudicial,
unjustified and misdirected.
[VII.] The trial court erred in not granting the Appellant's
request for a hearing on supplement information and
attorney misconduct relating directly to the same set offacts
and circumstances, in violation of the due process clause of

38

0A393 - E62
No. 19AP-202

17

the Fifth and Fourteenth Amendments to the United States
Constitution.
(Sic passim.) (Emphasis sic.)
III. Standard of Review
{f 30} An appellate court will not reverse a trial court's finding of contempt,
including the imposition of penalties, absent an abuse of discretion. Byron v. Byron, 10th
CM

o
CM
O

o
o
CL

<

o>
S
Q.
CO

Dist. No. 03AP-819, 2004-Ohio-2i43, H15.
{f 31} Contempt of court is defined as disobedience of an order of a court. Windham
Bank v. Tomaszczyk, 27 Ohio St.2d 55 (1971), paragraph one of the syllabus. It is "conduct
which brings the administration of justice into disrespect, or which tends to embarrass,

CM

impede or obstruct a court in the performance of its functions." Id. "The purpose of

CO
CM

contempt proceedings is to secure the dignity of the courts and the uninterrupted and

c

CO

unimpeded administration of justice." Id. at paragraph two of the syllabus. A court has

o
CM
o

both inherent and statutory authority to punish contempt. Howell v. Howell, 10th Dist.

in

No. 04AP-436, 2005-Ohio-2798,119, citing In re Contempt of Morris, 110 Ohio App.3d

CM

3
O

O
o

£

475,479 (8th Dist.1996).
{f 32} Courts classify contempt as either direct or indirect, and as either criminal or

O

civil. See Cincinnati v. Cincinnati Dist. Council 51, 35 Ohio St.2d 197, 202-03 (1973).

(0
0)

Contempt is classified as direct or indirect depending on where the contempt occurs. Direct

a
a

<
o

3
O

o
.2
•C

o
c
3
o

contempt occurs in the presence of the court in its judicial function. Byron at H12. Indirect
contempt involves behavior outside the presence of the court that demonstrates lack of
respect for the court or for the court's orders. Id.
{f 33} "While both types of contempt contain an element of punishment, courts
distinguish criminal and civil contempt not on the basis of punishment, but rather, by the

o

character and purpose of the punishment." Brown v. Executive 200, Inc., 64 Ohio St.2d

.2
2

250> 253 (1980). " 'Civil as distinguished from criminal contempt is a sanction to enforce

u_2

compliance with an order of the court or to compensate for losses or damages sustained by

c

reason of noncompliance.'" Pugh v. Pugh, 15 Ohio St.3d 136,140 (1984), quoting McComb
v. Jacksonville Paper Co., 336 U.S. 187,191 (1949). Criminal contempt sanctions are not
coercive in nature but act as "punishment for the completed act of disobedience, and to
vindicate the authority of the law and the court." Brown at 254.

39

0A393 - E63
No. 19AP-202

18

{f 34} Although, "[i]n cases of criminal, indirect contempt, it must be shown that
the alleged contemnor intended to defy the court," in cases of "civil contempt" it is
"irrelevant that the transgressing party does not intend to violate the court order. If the
dictates of the judicial decree are not followed, a contempt citation will result." Midland
Steel Prods. Co. v. UA.W. Local 486, 61 Ohio St.3d 121 (1991), paragraph two of the
syllabus; Pedone v. Pedone, 11 Ohio App.3d 164,165 (8th Dist.1983). See also Windham
CM
O
CM
O

Bank at paragraph three of the syllabus. For civil contempt, the burden of proof is clear

CL

and convincing evidence; for criminal contempt, the burden of proof is proof beyond a

o
o

<

o>

reasonable doubt. Lopez v. Lopez, lothDist. No. 04AP-508,2005-Ohio-H55,156; Brown

CL

at syllabus. It is well-settled that to find a litigant in contempt, the court must find the

CO
CM

existence of a valid court order, that the offending party had knowledge of such order, and

CO
CM

that such order was, in fact, violated. McCall v. Kranz, 10th Dist. No. 15AP-436, 2016-

c

<0

o
CM
O
CM

in

Ohio-214, If 9, citing Arthur Young & Co. v. Kelly, 68 Ohio App.3d 287, 295 (10th
Dist.1990). Once the complainant has satisfied his or her initial burden of demonstrating
the other party violated a court order, the burden shifts to the other party to either rebut

3

o

o

the showing of contempt or demonstrate an affirmative defense by a preponderance of the
evidence. Ryan v. Ryan, 10th Dist. No. 14AP-28, 20i4-Ohio-3049, If 12.

a

o

{f 35} The August 10, 2016 motion to show cause and the trial court's granting

to

thereof finding contempt and imposition of sanctions and attorney fees at issue in this

<
o

appeal concern indirect, civil contempt.

a>Q.
a.

{f 36} The November 7, 2016 decision and entry, February 13, 2017 magistrate's

3

O

o

.2
£

o

>.

decision, May 17, 2017 decision and entry, and December 21, 2018 magistrate's decision
were interlocutory decisions addressing the court's determinations to: (1) grant the motion
to show cause; (2) hold appellant in contempt of court; and (3) impose sanctions and

3

o

O

attorney fees to enforce compliance and compensate for loss as a result of contempt.

.2
2

Integral to these decisions is the court's initial finding on November 7, 2016 that appellant

c

<0
11.

violated the Agreed Entry by filing a claim with the civil rights commission, a report with
police, and claims with two insurance companies, Hartford and Liberty. Appellant's
objections to the magistrate's February 13, 2017 decision, appellant's September 18, 2017
Notice, and appellant's objections to the magistrate's December 21, 2018 decision were, in
essence, attempts by appellant to rebut appellees' showing of contempt and move the court

40

0A393 - E64
No. 19AP-202

19

to reconsider the determinations to initially find appellant had violated the Agreed Entry,
grant the motion to show cause, hold appellant in contempt of court, and impose sanctions
for the same. In particular, the September 18, 2017 Notice moved the court to consider the
supplemental information. We construe the court's refusal to relitigate the same as not
only overruling of objections to and adoption of the magistrates' decisions but, also, denials
of appellant's efforts to move the court to reconsider the same.
CM
O
CM
O

o
o

Q.

<

o>

S

{f 37} In accordance with Civ.R. 53, the trial court reviews a magistrate's decision
de novo. Black v. Columbus Sports Network, LLC, 10th Dist. No. 13AP-1025, 2014-Ohio3607,1f 14, citing Mayle v. Ohio Dept, of Rehab. & Corr., 10th Dist. No. 09AP-541, 2010-

CM

Ohio-2774, H 15. In reviewing objections to a magistrate's decision, the trial court must
make an independent review of the matters objected to in order "to ascertain [whether] the

CO
CM

magistrate has properly determined the factual issues and appropriately applied the law."

Ql
CO

<M
c

o
CM
o
CM

in

Civ.R. 53(D)(4)(d). An appellate court, by contrast, applies an abuse of discretion standard
when reviewing a trial court's adoption of a magistrate's decision. Id. at K15. An abuse of
discretion connotes more than an error of law or judgment; it implies the trial court's

3

O

o

attitude is unreasonable, arbitrary, or unconscionable. Blakemore v. Blakemore, 5 Ohio

o

St.3d 217, 219 (1983). Claims of error by the trial court must be based on the trial court's

*

o

(0
4)
Q.
Q.

<

O
3
O

o

0
-C

o

>.

c
3
o
O

£
3

c
ra
u.

actions, rather than on the magistrate's findings. Mayle at U15. Therefore, we may reverse
the trial court's adoption of the magistrate's decision only if the trial court acted
unreasonably, arbitrarily, or unconscionably. Id.
{f 38} The same standard of review applies to a trial court's ruling on a motion for
reconsideration." 'A trial court has plenary power in ruling on a motion for reconsideration,
and we will not reverse such rulings absent an abuse of discretion.'" Black at H19, quoting
Mindlin v. Zell, 10th Dist. No. 11AP-983, 2012-OW0-3543, H 23. With these standards of
review in mind, we will now consider appellant's assignments of error.
IV. Analysis of the Fourth Assignment of Error
{f 39} In her fourth assignment of error, appellant specifically argues the Agreed
Entry was not in force once the court ordered the parties to participate in the arbitration
process and stayed the case pending completion of the same. In support of this argument,
appellant points to the trial court's decision of November 10,2015 which ordered the parties
claims, counterclaims, and defenses be submitted to binding arbitration and ordered

41

0A393 - E65
No. 19AP-202

20

"[plaintiffs' claims against TRG, including TRG's defenses, are hereby STAYED pending
the resolution of the arbitration process." (Emphasis sic.) (Nov. 10, .20-15 Decision at 6.)
{f 40} The trial court stayed appellees' claims against TRG and TRG's defenses in
response to appellees' July 20, 2015 motion requesting the same pursuant to R.C.
2711.02(B).13 R.C. 2711.02(B) states that "[i]fany action is brought upon any issue referable
to arbitration under an agreement in writing for arbitration, the court in which the action
CN
O
CN
O

o
o
0.
<
o>
2
CL

is pending, upon being satisfied that the issue involved in the action is referable to
arbitration under an agreement in writing for arbitration, shall on application of one of the
parties stay the trial of the action until the arbitration of the issue has been had in
accordance with the agreement, provided the applicant for the stay is not in default in

CO
CN

proceeding with arbitration." (Emphasis added). Courts of this state have recognized that

CO
CN

the purpose of a preliminary injunction pending arbitration is to preserve the status quo of

c

(0
"9

o

CN
O
CN

in

the parties pending a decision on the merits. See E. Cleveland Firefighters, IAFF Local
500, AFL-CIO v. E. Cleveland, 8th Dist. No. 88273, 2007-Ohio-i447, H 5, citing State ex
rel. CNG Financial Corp. v. Nadel, 111 Ohio St.3d 149, 20o6-Ohio-5344; Dunkelman v.

3

O

o
o
w

o
CO
0)
Q.
Q.

<

Cincinnati Bengals, Inc., 158 Ohio App.3d 604, 2004-Ohio-6425 (1st Dist.); Proctor &
Gamble Co. v. Stoneham, 140 Ohio App.3d 260 (1st Dist.2000); see also Nationwide
Mutual Ins. Co. v. Universal Fidelity Corp., S.D.Ohio No. C2-01-1271 (July 15, 2002)
(recognizing that injunctions pending arbitration should ordinarily be limited to preserving
the status quo so that the arbitration is not a "hollow proceeding"); Parsley v. Terminix

IH

Internatl. Co. L.P., S.D.Ohio No. C-3-97-394 (Sept. 15, 1998) (recognizing preliminary
3

O

injunction is only warranted when necessary to preserve the meaningfulness of the

.c
O
>.
e
3
o
O
.2
2
c
ra
u_

arbitration process). Similar reasoning applies here where the Agreed Entry was stipulated

o
.2

to and entered "as to" appellees' motion for preliminary injunction. The trial court did not
err when it determined the Agreed Entry was still in effect during the pendency of
arbitration.
{f 41} Accordingly, the fourth assignment of error is overruled.

« The exact wording of this order refers to a stay of claims and defenses involving TRG, a non-party to this
case. However, the parties and the court all seem to understand it to also refer to a stay of the claims and
defenses between the parties while the arbitration was pending. Such understanding is consistent with R.C.
2711.02(B).

42

0A393 - E66
No. 19AP-202

21

V. Analysis of the First, Third, and Part (C) of the Seventh Assignments of
Error
A. First Assignment of Error
{f 42} In her first, third, and part (C) other seventh assignments of error, appellant
argues the trial court erred in enforcing the Agreed Entiy, finding appellant violated the
Agreed Entry, failing to hold a hearing on the violations, and failing to reconsider its finding
CM
O
CM
O

o
o
CL
<
o>
CL

CO
CM
CO
CM
C
CO

o
CM
o

CM

c!)

of violations. In support of her first assignment of error, appellant argues the trial court
erred in its interpretation of the Agreed Entry, first, by misconstruing the "spirit" of the
Agreed Entry; and second, by interpreting the Agreed Entry to prohibit her from
representing herself as an owner or member of RRL; and third, by interpreting the Agreed
Entry to prohibit her from reporting or forcing her to conceal a crimed
{f 43} First, appellant argues that the "spirit" of the Agreed Entry is that she refrain
from representing that she has authority to transact business on behalf of RRL or IHT. We
agree that Section IV of the Agreed Entry, regarding non-solicitation and trade secrets,
expresses the same. However, there are four additional sections of the Agreed Entry.

3

O

o
o

Section I, regarding non-affiliation, is what is at issue here. Therefore, we find the trial

o

{f 44} Second, Section I, paragraph a, stipulates that appellant and TRG would

(0
0
Q.
Q.

refrain from: "representing to any person, business, or entity that Defendants are

<
o

court did not misconstrue the spirit of the Agreed Entry as appellant argues.

employees, agents, authorized representatives, producers, officers, managers or doing
business as, or in any way working with orfor, plaintiffs IHT or RRL." (Emphasis added.)

3

oO

It is true, as appellant points out, that the Agreed Entry does not specifically use the words

.2
•C

"member" or "owner," and that whether appellant remains a member or owner of RRL is

o
>.
c
3
o

at the heart of this dispute. Nevertheless, whether, in identifying herself as a member or

o

owner, appellant was representing herself as an authorized representative or in any way

£
3c
2
u.

working with or for IHT or RRL, depends on the context of her representation and all the
surrounding facts. Accordingly, it is important to carefully examine the same for each
alleged violation. We do this as we consider the third assignment of error and part (C) of
the seventh assignment of error.
*4 In light of the court's determination sustaining in part the first, third, and part (C) of the seventh
assignments of error, it is not necessary for this court to consider whether the Agreed Entry prohibits appellant
from reporting or forcing her to conceal a crime.

43

0A393 - E67
No. 19AP-202

22

B. Third and Part (C) of the Seventh Assignments of Error
{f 45} In her third assignment of error and part (C) of her seventh assignment of
error, appellant argues the court erred in not holding a hearing on the finding of violations,
in not providing appellant an opportunity to rebut the finding of violations or, in the
alternative, in essence, in not reconsidering the initial finding of violations of the Agreed
CSI

Entry. Appellant argues the court made its initial finding of violations based on documents
drafted by other persons—the civil rights commission's redetermination letter and the

o
o
£L
<

police intake form—and she was updating the insurance claim she filed prior to the Agreed

O

Entry. Appellant further argues the court did not take into consideration the supplemental

a.

evidence she submitted with the September 18, 2017 Notice and exhibits thereto.

O
CM
O

CO
CM
CO
CM

c

CO

o
CM
o
CM

<ft

{f 46} We agree the trial court did not give appellant an opportunity to rebut its
initial finding of violations of the Agreed Entry with regard to the civil rights commission's
claim and the police report and abused its discretion in not reconsidering its interlocutory
finding of November 7, 2016 and May 17, 2017, and in entering the final decision of
March 15,2019 with regard to the insurance claims. This is evidenced in the court's implicit

3

O

o
o
*

o

rejection, without any reference thereto of the September 18, 2017 Notice and exhibits
thereto and appellant's objections to the magistrates' decisions. It is also evidenced by the
court's express words in its decisions.

(0
<D
Q.
Q.

{f 47} In the court's November 7, 2016 decision, the court initially found appellant
violated the Agreed Entry and referred the matter to the magistrate to set a hearing for the

O

narrow purpose of having appellant "show cause for why she should not be held in
contempt for her [violations]." (Nov. 7, 2016 Decision at 5.) At the February 8, 2017

<

3

O

o
.2
£
o

>.
3
O

O
.2
2
c
re
Li-

hearing, the magistrate began by noting that the hearing was limited to two issues, the
"second [issue] is - - we have to do whether Merrilee Stewart's conduct in - - violates the
agreement or the spirit of the agreement that was entered into on or about May 26th, 2015,
agreed entry as to the plaintiff RRL Holding Company of Ohio, LLC and IHT Insurance
Agency Group, LLC motion for a preliminary injunction that was agreed to." (Tr. at 2.)
Appellees' counsel then attempted to narrow the scope of the hearing to a determination of
whether appellant should be held in contempt for her violations and the magistrate agreed.
However, the magistrate did permit appellant's counsel to make an opening statement
which addressed each of the four violations the court had previously determined.

44

0A393 - E68
No. 19AP-202

23

Furthermore, notwithstanding the magistrate informing appellant of the limited scope of
the hearing, appellant testified, on direct, cross-, and redirect-examination, in detail that
she did not violate the Agreed Entry when she filed the claim with the civil rights
commission, the report with police, and the claims with the insurance companies. In the
February 13, 2017 decision as discussed above, the magistrate did discuss appellant's
testimony and found it to be not credible.
CM
O
CM
O

o
o
Q.

<

o>
0.
CO
CM
CO
CM

c

CO

{f 48} In the May 17, 2017 decision adopting the magistrate's decision, the court
likewise addressed appellant's testimony, but observed that at the magistrate's hearing,
appellant "sought to relitigate * * * the Court's ruling that she had violated [the Agreed
Entry]." (May 17, 2017 Decision at 3.) Furthermore, despite its narrow instruction on the
scope of the magistrate's hearing in the November 7, 2016 decision, the court noted that
the November 7, 2016 decision "referred the issue of contempt to [the magistrate] for a

o
CM
o

hearing at which [appellant] was provided an opportunity to rebut [appellees'] initial
showing" that appellant had violated the Agreed Entry. (May 17, 2017 Decision at 4.)

</)

{f 49} Nevertheless, four months later, immediately prior to the next hearing,

CM

3

O

o

appellant filed her September 18, 2017 Notice. For the reasons we discuss in detail below,

o

we find the September 18, 2017 Notice and the exhibits thereto warranted careful

*

o
«

ra
0)
a.

consideration by the trial court. However, the court never addressed or even mentioned
the September 18, 2017 Notice and exhibits thereto.

<

Q.

{f 50} In the December 21,2018 decision, the magistrate noted that, pursuant to the

O

court's July 5, 2017 order of reference, the magistrate heard evidence and arguments in
order to determine "appropriate sanction(s) for [appellant's] four separate violations of the

3

O

o

.2
.c
O
>.
3

o

o
.2
2

c
ra
u_

Agreed Entry, including but not limited to attorney fees." (Dec. 21, 2018 Mag. Decision at
5.) The magistrate observed that appellant presented no credible evidence or argument to
challenge an award of sanctions; rather, appellant "sought (yet again) to relitigate the
Court's ruling that [she] violated the Agreed Entry."^ (Dec. 21, 2018 Mag. Decision at 6.)
The magistrate concluded "th[e] Court has previously determined that [appellant] acted in
indirect contempt of this Court by her four separate violations of the Agreed Entry."
(Dec. 21, 2018 Mag. Decision at 8.)

*5 The record does not contain a transcript of the September 18,2017 hearing.

45

0A393 - E69
No. 19AP-202

24

{f 51} In her January 4, 2019 objections to the December 21, 2018 magistrate's
decision, appellant specifically objected that the magistrate failed to review the evidence
presented in the September 18, 2017 Notice and exhibits thereto. Appellant argued
"[pjerhaps the most egregious error in the magistrate's decision of December 21, 2018 is
the failure to review the supplemental documentation provided to the court on
September 18, 2017." (Appellant's Obj. at 18.)
CM
O
CM
O

o
o
OL

<

{f 52} The magistrate's December 21, 2018 decision did not stray from the court's
narrow order of reference to the magistrate, and in its March 15, 2019 decision, the court

o>

did not address appellant's specific objection. Nevertheless, construing the September 18,

Q.

2017 Notice as a motion for an opportunity to rebut or a motion to reconsider the court's

co
CM

initial finding of violations, the court erred in not even mentioning the September 18, 2017

CO
CM

Notice. Rather, the court noted "[unsurprisingly, [appellant's] objection to [the

c

<0

o
CM
o
CM

(!)
3
O

O

o
£

O

£

magistrate's] Decision is nothing more than another attempt to relitigate the Court's prior
rulings, [and] [r]ather, as stated by [appellees], 'she again argues that she never should have
been held in contempt in the first instance.'" (Mar. 15, 2019 Decision at 7.) Despite the
court's prior rulings being interlocutory in nature, the court rejected appellant's effort to
convince the court to provide her an opportunity to rebut and to reconsider its initial
finding that she violated the Agreed Entry.

<0

{f 53} A court may reconsider and reverse an interlocutory decision at any time

<
o

before the entry of final judgment, either sua sponte or upon motion. Alternatives

a>a.
o.
3
O

o
.9
£

o

>.
c
3

Unlimited-Special, Inc. v. Ohio Dept. ofEdn., 10th Dist. No. 12AP-647, 2013-01^0-3890,
1127. "[Reconsideration of interlocutory decisions is a matter within the judge's sound
discretion." Id. at If 68. As noted above, an appellate court will not disturb a trial court's
denial of reconsideration absent an abuse of discretion.

o

o

{f 54} A detailed discussion of the court's initial finding of violations, the August 10,

.9
2

2016 motion and exhibits, evidence from the February 8, 2017 hearing, the September 18,

u.S

2017 Notice and exhibits thereto, and appellant's objections to the magistrates' decisions is

c

now warranted to explain our conclusion that the trial court erred in not giving appellant
an opportunity to rebut its initial finding of violations regarding the civil rights
commission's claims, the police report, and in not reconsidering its initial finding of
violations regarding the insurance claims.

46

0A393 - E70
No. 19AP-202

25

1. Civil rights commission claim
{f 55} The court's initial finding that appellant violated the Agreed Entry by filing a
claim with the civil rights commission was based on exhibit A to the August 10,2016 motion
to show cause.
{f 56} The August 10, 2016 exhibit A is a copy of the civil rights commission letter
of determination upon reconsideration. In denying appellant's request to reconsider its
CM
O
CM
O

o
o
CL
<
o>
r*

£L
CO
CM
CO
CM
C
CO
“D

O
CM
O
CM
0)

prior finding of no probable cause and declination to sue appellees for unlawful
discrimination, the civil rights commission made, inter alia, the following finding of fact:
"Although her charge alleges that she was constructively discharged, she now denies this in
her request for reconsideration, claiming that 'I am now and remain a member/owner' of
[appellees]." (Nov. 7, 2016 Decision at 4, quoting Civil Rights Commission Letter at 2.) At
the hearing before the magistrate on February 8,2017, appellant attempted to convince the
magistrate to reconsider the court's initial finding. Appellant testified she included herself
in submitting a list of all the members of RRL but was representing herself as the
claimant/victim; her understanding of the Agreed Entry was that it prohibited her from

3

O

o
o
a

o
re
re
a.
Ql
<
o
■w

3

o
O
.2
£
O
>.

holding herself out as representing IHT or RRL; and she never intended to violate the
Agreed Entry with her filing of the civil rights commission claim. As noted previously, the
magistrate was not persuaded and found her explanations to be unavailing as appellant did
nothing to object to the civil rights commission's statement and did not convince the
magistrate that the civil rights commission was mistaken when it stated she held herself out
as a member or owner. The trial court agreed appellant's explanations were wholly
implausible and unavailing. The court further found appellant's testimony was belied by

o

the document presented at the hearing and rejected appellant's arguments that the civil
rights commission's letter was impermissible hearsay as appellant did not raise the same
objection at the time the letter was admitted, the letter was a public record, and appellant's

.2
2
cre
u.

statement was the admission of party-opponent. The trial court adopted the magistrate's
decision as to the civil rights commission's claim.

3

O

{f 57} Appellant again attempted to convince the trial court to reconsider its initial
finding with the September 18, 2017 Notice and exhibits thereto. In the notice, appellant
argued the confusion before the civil rights commission stemmed from appellant's
complaint related to charges affecting her personally and other charges stemming from her

47

0A393 - E71
No. 19AP-202

26

firsthand knowledge from her management and board roles at IHT from the years 2007 to
2014, as well as from references to IHT and RRL as IHT/RRL rather than as two separate
entities. Appellant also made several arguments regarding the interpretation of the IHT
Operating Agreement and the Buy/Sell Agreements. Further, she claimed it is clear from
her claim before the civil rights commission that she is a victim and a whistleblower and
that appellees'alleged discriminatory treatment of her was retaliation.
.

CM
O
CM
O

o
o
Q.

<

O)

CL

co

{f 58} The notice referred to numerous exhibits. Most of the exhibits were filed
several days later, on September 22, 2017, with a statement that the "attached exhibits
[were] referenced to the Judge in the evidentiary hearing on Monday, September 18, 2017
and in [the September 18, 2017 Notice]." The exhibits are voluminous, approximately 300

CM

pages, and are not presented in an organized manner thereby making it difficult for the trial

CO
CM

court and this court to review.

c

<3
O
CM
O
CM
<0

{f 59} Notwithstanding, specific to the civil rights commission’s claim the exhibits
contain copies of several documents purportedly submitted to the civil rights commission,
including a copy of the original claim. In these documents, appellant makes several

3

O

o
o
£

statements to the civil rights commission which provide context to the representations
appellant made to the civil rights commission and warranted a hearing to provide appellant

ra

an opportunity to rebut the court's initial finding of violations. Following is a brief
summary of some of appellant's statements to the civil rights commission as shown in the

<

exhibits:

o
0)
Q.
Q.

O
*■»

3

O

o
.2
-C

o

>.
e
3
o

o
.£
2

c
ra

li.

• In a document titled "event date clarification," appellant
explained to the civil rights commission that she had also filed
a report with HUD about appellees alleged violations of fair
housing laws. She indicated therein that her knowledge of this
was "by virtue of holding a management position at IHT in the
years 2007-2014." (Sept. 22, 2017 Event Date Clarification, at
1.); and
• In a document titled "original Ohio Civil Rights complaint"
and a "narrative" thereto, appellant stated: (a) that the events
about which she was complaining took place from "2007
through 2015, the most recent act in May 2015" (Narrative at
3.); (b) that she was one of four members holding 16.7 percent
membership in RRL/IHT; (c) that she can only provide
financial info up to August 2014 because after that point "she
has been denied access to all data" (Narrative at 6.) and that
she has "never been an employee, and has always been a

48

0A393 - E72
No. 19AP-202

27

member" (Narrative at 7.); (d) that the male members tried to
remove her as a member on December 30, 2014; and (e) that
the male members had cut off her health and vision insurance,
stopped her distributions, discriminated against her and
retaliated against her.
(f 60} If, in fact, these statements provided the specific context of her statement to
the civil rights commission that she is "now and remains a member/owner" of appellees,
CM
O
CM
O

o
o
Q.
<
o
TJ"

2

CL
CO
CM
CO
CM

c

<0
©
CM

o
CM

</>

we could not uphold a finding that by clear and convincing evidence appellant violated the
Agreed Entry. We recognize, however, that these documents are copies and summaries.
Accordingly, we remand the decision, as to the civil rights commission's claim, to the trial
court to hold a hearing on the September 18, 2017 Notice and exhibits thereto and provide
appellant an opportunity to rebut the court's initial finding of violations to determine
whether reconsideration is warranted.
2. Police report
{f 61} The court's initial finding that appellant violated the Agreed Entry by filing a
report with police was based on exhibit B to the August 10, 2016 motion to show cause.

3

O

o

{f 62} The August 10,2016 exhibit B is a copy of the preliminary investigation report

o

of the Columbus Division of Police regarding the claim made by appellant that IHT was the

o

.2

victim of embezzlement. The report indicates: the reporting officer and the officer who

<0

entered the report into the system were the same; it was entered the same day it was
reported, July 7, 2016; the "call source" was a "walk-in"; the victim is listed as IHT
Insurance; no other victims are listed; appellant is listed as a "witness" and her work
address is listed as 6457 Reflections Drive, Dublin, Ohio 43017; and her "employer" is listed

<D

Q.
Q.

<

3

O

o

.2

JC

as IHT Insurance and the "employer address" is listed as 6457 Reflections Drive, Dublin,

3

Ohio 43017. At the hearing before the magistrate on February 8,2017, appellant attempted
to convince the magistrate to reconsider the court's initial finding. Appellant testified she

O
>.
O

o
£

£
c
ra

u_

went to the police station and gave some information to an officer who scribbled down notes
on a scratch pad, she gave the officer her driver's license to show him her name and address,
and she filed the report "[a]s an individual and a victim." (Tr. at 31.) She further testified
she never saw the report until the motion for contempt was filed. As noted above, the
magistrate was not persuaded by appellant's testimony and found her explanation that the
officer filed the report using erroneous information and her statement that she did not have

49

0A393 - E73
No. 19AP-202

28

a prior opportunity to see or correct the report to be not worthy of belief. The magistrate
reasoned that a person who claims she is a victim to the time of $5-10 million dollars would
follow up to see how the claim was progressing. The trial court agreed and found appellant's
explanation regarding the police report was, at best, wanting. The trial court adopted the
magistrate's decision as to the police report.
CM

o
CM
o
o
o

£L

<

{f 63} Appellant again attempted to convince the trial court to reconsider its initial
finding with the September 18,2017 Notice and exhibits thereto. In the September 18,2017
Notice, appellant argued the finding that she had held herself out as representing IHT in

O)

filing the police report was based on an intake form, not the claim report that she had

CL

submitted "as a victim and an informant." (Sept. 18, 2017 Notice at 13.) She claimed she
had submitted to police a series of actual court documents "to show what each parties
claim" [sic], and details of her claims as a victim. She included in the notice a narrative

co
CM
CO
CM
C

re
o
CM
O
CM
0)

D
O

which stated:
• "I see my authority to report this criminal activity from my
position as an 'Insider - Whistle Blower' and also as a victim
of the systematic embezzlement," and

o
o

• "I was active in the management of IHT Insurance Agency
Group * * * during the years of 2007 to 2014."

o
n

0
Q.
Q.

<

O
3

O

o

.2

•C

o

(Sept. 18, 2017 Notice at 13.)
(f 64} Appellant also attached three "demand letters," which she stated reveal the
specifics of what she told police. In the demand letters, appellant is identified as having
"succeeded to the rights of Norman L. Fountain, Norman L. Fountain Ins. & Assoc., LLC,
and Speedy Auto Insurance Agency, LLC, including the trade names of Your Insurance

>.

Agency and Client Choice Insurance (collectively, the 'Fountain Entities')." (Sept. 23,2016

3

o

"Demand Letter.") The letter states it includes demand for commissions owed to her by

.2
2

IHT as well as amounts due and owing to Fountain Entities. Also included are several
copies of letters from Norman L. Fountain to whom it may concern, indicating appellant is

c

o
c
ra

Li.

an "additional Agency Owner and Principle in my agency." (Dec. 5,2015 Letter.)
{f 65} If, in fact, these statements and exhibits provided the specific context of her
filing the report with police, we could not uphold by clear and convincing evidence
appellant violated the Agreed Entry. We recognize, however, that these statements and
exhibits are copies and summaries. Accordingly, we remand the decision, as to the police

50

0A393 - E74
No. 19AP-202

29

report, to the trial court to hold a hearing on the September 18, 2017 Notice and exhibits
thereto and provide appellant an opportunity to rebut the court's initial finding of violations
to determine if reconsideration is warranted.
3. Insurance claims
(f 66} The court's initial finding that appellant violated the Agreed Entry by filing
CM
O
CM
O

o
o
Q.
<
o
CL

CO

91

CM
CO
CM

c
o

claims with Hartford and Liberty was based on exhibit C and appendices thereto attached
to the August 10,2016 motion to show cause.
{f 67} Exhibit C and appendices one through five are copies of e-mails sent by
appellant to Hartford in an effort to report alleged embezzlement at IHT and a claims
summary filed with Liberty regarding the same. At the hearing before the magistrate on
February 8, 2017, appellant attempted to convince the magistrate to reconsider the court's
initial finding. Appellant testified she was one of the victims on whose behalf she filed the
insurance claims and that other victims included IHT, agents, and customers. She

CM
O
CM

conceded that although the Liberty claims summary did not contain her name, she did in

</>

fact file the claim. She also explained that the e-mails to Hartford were follow-up

3

o
o

O

communications to a claim she had initiated before signing the Agreed Entry and that she
filed the claims and updates on the advice of counsel. As noted previously, the magistrate

*

was not persuaded and reasoned that such advice did not relieve her of her responsibility

o
*

(0
0)
Q.
CL

<
O

to abide by the Agreed Entry and that it could not excuse such conduct. The trial court
noted appellant's explanation that she had filed the insurance claims in her personal
capacity but found that, as an insurance professional, appellant would have understood that

3

o

O

the policies were for losses suffered by IHT. The court found to be not credible appellant's

.2
x:
O

position that she did not realize she was holding herself but as a representative of IHT when
filing the claims. The trial court adopted the magistrate's decision as to the insurance

>.
3

o

O
£
£
c
ra
u.

claims.
{f 68} Upon careful review of exhibit C and attached appendices, it appears that
when fifing the insurance claim with Hartford, appellant clarified the uncertainty of her
status as a member/owner. In her July 19, 2016 e-mail, while she did represent herself as
a member/owner, she also fisted the names of the other owners and their percentages. She
also explained that at a meeting in September 2014, the partnership relationship was
severed and that in October 2014, she was informed by Bill Griffioen there was no longer

51

0A393 - E75
No. 19AP-202

30

any future for her at the company. She stated that three members had made an attempt to
oust her from the company. In her July 20,2016 e-mail, she listed herself as an "Estranged
member and owner IHT/RRL." (Exhibit C, Appendix 2, to the Aug. 10, 2016 Mot. to Show
Cause.) In her July 28, 2016 e-mail, appellant again listed herself as an "Estranged
member/owner." Furthermore, consistent with her testimony at the February 8, 2017
CM
O
CM
O

o
o

a.

<
o>
CL
CO
CM
CO
CM
C
CO

hearing as the person/entity who suffered loss due to the alleged embezzlement, appellant
listed IHT/RRL, agents, employees, managers, independent producers, owners, taxing
authorities, and customers. The Liberty claims summary does not list appellant's name and
also does not indicate who is the claimant or the position of the claimant. Finally, we note
appellees presented no evidence regarding who had authority pursuant to the contracts
with Hartford and Liberty to file claims and who or what entity was the insured. On this
initial evidence alone, we cannot uphold a finding that by clear and convincing evidence

o

appellant violated the Agreed Entry. The September 18, 2017 Notice and exhibits thereto
pertaining to the insurance claims, although not necessary to our conclusion, reinforce our

</>

conclusion that the trial court erred in not reconsidering its initial finding that appellant

”0

CM
O
CM

3
O

O
o

violated the Agreed Entry by filing the insurance claims.

£

finding with the September 18, 2017 Notice and exhibits thereto. In the Notice, appellant

a
*

<0
0)

a
a

<
o

3
O

o
.2
.c
O
>.

{f 69} Appellant again attempted to convince the trial court to reconsider its initial
again stated she filed the insurance claims prior to the filing of the Agreed Entry and that
she subsequently updated the insurance companies upon the advice of counsel. Exhibits
filed on September 22 contain copies of additional e-mails between appellant and Hartford
in which appellant appears to be inquiring whether she is an insured member of the limited
liability company. The Hartford representative, Julie Dengler, responds in an April 29,

o

o

2015 e-mail that "[m]embers of a limited liability company are insureds only with respect
to the conduct of your business." In a February 20,2017 e-mail from appellant to Hartford,

.2
2

appellant states that she believes she is insured under the Hartford - IHT policy as her

3

c
a

LI.

membership interest in RRL is unredeemed. She goes on to say "[m]y active involvement
in the management of IHT Insurance Agency Group was 2007 to 2014."
(f 70} Even without these e-mails providing context to the filing of the claims with
the insurance companies, we cannot uphold a finding that by clear and convincing
evidence, based solely on exhibit C and appendices to the August 10,2016 motion, appellant

52

0A393 - E76
No. 19AP-202

31

violated the Agreed Entry. Therefore, we sustain the first, third, and part (C) of the seventh
assignments of error to the extent they assign error in not reconsidering its finding of
violations regarding the filing of the insurance claims.
{f 71} Accordingly, we sustain appellant's first, third, and part (C) of the seventh

CM
O
CM
O

o
o

Q.

<

o>
rp

assignments of error to the extent they allege the trial court erred in not holding a hearing
and in not providing an opportunity to rebut its initial finding that appellant violated the
Agreed Entry when she filed a claim with the civil rights commission and a report with
police. On remand, the court shall hold a hearing on the September 18, 2017 Notice and

CM

exhibits thereto to provide appellant an opportunity to rebut the initial finding of violations
regarding the civil rights commission claim and police report to determine if
reconsideration is warranted. Furthermore, we sustain the same assignments of error to

CO
CM

the extent they allege the trial court erred in not reconsidering its initial finding that

CL
CO

c

CO
"0

o
CM
o
CM

<A

appellant violated the Agreed Entry when she filed the insurance claims. On remand, the
trial court shall vacate that finding and any award of sanctions or attorney fees pertaining
thereto. Finally, to the extent appellant's first, third, and seventh assignments of error

3

O

o
o

*

o

<0
0)
Q.
Q.

<

O

allege additional errors or abuse, they are rendered moot.
VI. Analysis of the Second, Fifth, and Sixth Assignments of Error
{f 72} In her second, fifth, and sixth assignments of error, appellant argues the trial
court erred by imposing sanctions on appellant and awarding appellees attorney fees.
Pursuant to our resolution of the fourth, first, third, and part (C) of the seventh assignments
of error, we find the second, fifth, and sixth assignments of error are rendered moot.

3

O

o

.2

VII. Analysis of the Seventh Assignment of Error Parts (A) and (B)

.2
2

{f 73} In parts (A) and (B) of her seventh assignment of error, appellant alleges the
trial court erred in not granting her September 18, 2017 motion for sanctions. The trial
court denied this motion on December 12, 2017. Appellant argues the court erred in not
imposing sanctions: (1) on Fritz Griffioen for tendering a false affidavit and interfering with

2

a police investigation, a court proceeding, and insurance investigation, and (2) on appellees'

£

o

>.

c
3
o

o
c

LL

Attorney James R. Carnes for attorney misconduct, perjury, fraud, witness tampering,
abuse of process, and other claims. Appellant further alleges the trial court erred in not
holding a hearing on the same. We decline to address appellant's seventh assignment of
error, parts (A) and (B), as the court's ruling denying sanctions was not addressed in any of

53

0A393 - E77
No. 19AP-202

32

the court's decisions addressed in the notice of appeal. Accordingly, parts (A) and (B) of
appellant's seventh assignment of error are dismissed.
VIII. Conclusion
(f 74} Appellant's fourth assignment of error is overruled. To the extent appellant
alleges the trial court erred in not granting a hearing and not providing an opportunity to
rebut its initial finding that appellant violated the Agreed Entry by filing a claim with the ■; ■
CM
O
CM
O

o
o
CL

<

O)

CL

civil rights commission and a report with police; and to the extent appellant alleges the trial "
court erred in not reconsidering its initial finding that appellant violated the Agreed Entry
by filing claims with the insurance companies, appellant's first, third, and part (C) of her
seventh assignments of error are sustained and the March 15, 2019 decision and entry of

CO
CM
CO
CM

c

(0
"5

o
CM
o
CM

<!)

the Franklin County Court of Common Pleas is reversed in part. The remainder of the firsts
third, and seventh assignments of error, as well as the second, fifth, and sixth assignments
of error are rendered moot. Finally, parts (A) and (B) of the seventh assignment of error
are dismissed as the court's December 12,2017 entry was not raised in the notice of appeal.
This case is remanded to the trial court in accordance with law and the instructions within

3

o

o

this decision.
Judgment reversed in part;
cause remanded with instructions.

O

o
«

(Q
0)
Q.
Q.

<

NELSON, J., concurs.
SADLER, P.J., concurs in part and dissents in part.

O
*0

3

o

o

SADLER, P.J., concurring in part and dissenting in part.

>.

(f 75} I concur in the majority decision overruling the second, fourth, fifth, and
sixth assignments of error and overruling in part appellant's seventh assignment of error.

c
3
o

However, because I disagree with the majority in sustaining appellant's first and third

0
£

o

O

£
£

c
ra

LL

assignments of error and sustaining appellant's seventh assignment of error in part, I
respectfully concur in part and dissent in part.
{f 76} The majority decision summarizes its ruling in this appeal at the
"Conclusion," which reads in relevant part as follows:
To the extent appellant alleges the trial court erred in not
granting a hearing and not providing an opportunity to rebut
its initial finding that appellant violated the Agreed Entry by
filing a claim with the civil rights commission and a report

54

0A393 - E78
No. 19AP-202

33

with police; and to the extent appellant alleges the trial court
erred in not reconsidering its initial finding that appellant
violated the Agreed Entry by filing claims with the insurance
companies, appellant's first, third, and part (C) of her seventh
assignments of error are sustained and the March 15, 2019
decision and entry of the Franklin County Court of Common
Pleas is reversed in part.
CM
O
CM
O

o
o
CL

<

(Majority Decision at K 74.)
77} Because I believe the record in this case shows that appellant had an
opportunity to present evidence to rebut the trial court's initial determination that

O)

appellant violated the Agreed Entry, I disagree with the majority's conclusion.
CL

{f 78} In its November 7, 2016 decision and entry granting appellees' August 10,

co

<M

CM
CO
CM

c
a
©
CM
O
CM

</>
3

o

o
o

2016 motion to show cause, the trial court summarized the allegations in appellees'
motion and examined the evidence submitted by appellees in support of the allegations.
The trial court also considered appellant's memorandum in opposition to the motion to
show cause, wherein appellant argued that the Agreed Entry was mooted by the pending
arbitration and that her conduct as alleged in the motion, if proven true, did not constitute
a violation of the Agreed Entry as appellant interpreted the document.

£

(f 79} The trial court first determined the Agreed Entry was not mooted by the

£

o
«

ra

a>Q.
Q.

<

O
3

submission of the case to arbitration. The trial court next determined that appellant's
conduct as alleged in the motion violated the Agreed Entry, as the trial court interpreted
the document, in four ways: (1) filing a complaint with the civil rights commission in
which appellant allegedly stated: "I am now and remain a member/owner of [IHT]";

O

o

.2
•C

(2) submitting an oral report to the Columbus Police Department regarding alleged

o

embezzlement of IHT funds; (3) submitting a claim to Hartford Insurance Company in
IHT's behalf; and (4) submitting a claim to Liberty Mutual Insurance Company on IHT's

o

behalf. (May 19, 2016 Letter of Determination, attached as Ex. A to Aug. 10,2016 Mot. to

>.
c
3
o

.2
2
c

<0

u_

Show Cause.) The trial court then referred the case to a magistrate for appellant "to
appear and show cause for why she should not be held in contempt for her failure to
comply with the parties' May 28, 2015 Agreed Entry." (Nov. 7, 2016 Decision & Entry at
5-)

{f 80} In sustaining several of appellant's assignments of error, the majority finds
the magistrate unfairly prevented appellant from presenting evidence and argument at

55

0A393 - E79
No. 19AP-202

34

the February 8, 2017 evidentiary hearing in support of her contention that she did not
engage in conduct violative of the Agreed Entry. However, in my view, the magistrate's
decision and the trial court's subsequent decision overruling appellant's objections reveal
the magistrate merely prevented appellant from making the same legal arguments that
the trial court previously considered and rejected in its November 7, 2016: decision and
entry. Contrary to the majority's conclusion, the record shows the magistrate permitted
CM
O
CM
O

o
o
CL

<

appellant to present evidence and arguments in support of her contention that she did
not engage in the contumacious conduct alleged in the motion.

o>
r*

{f 81} At the hearing before the magistrate, appellant made two legal arguments:

Q.

(1) the Agreed Entry was moot; and (2) appellant's conduct as alleged in appellees' motion

CO
CM

to show cause and as evidence in the supporting documents, if proven true, did not result

CO
CM

in a violation of the Agreed Entry as appellant interpreted the document. Because the

c

(0

o
CM
O
CM

</>

trial court had resolved both of those legal issues in its November 7, 2016 decision and
entry granting appellees' motion to show cause, the magistrate determined she did not
have the authority to reconsider the trial court's decision on those legal issues. I agree

3

o

o
£
£
o
«

(0

a>Q.
a

<
o

with the magistrate on this issue. See Civ.R. 53(D)(1).16
{f 82} In addition to the preceding legal arguments, appellant also argued she did
not engage in the contumacious conduct alleged in appellees' motion to show cause and
evidenced by the documents submitted by appellees. With regard to the civil rights
complaint, appellant attempted to prove, by her own testimony, that she did not make the
statements attributed to her in the commission's report. With regard to the Columbus

3

o

O
.2

Police Department report, appellant attempted to show, by her own testimony, that the

£

o

>

c
3
o

o
£
£
c

m
u.

16 Civ.R. 53(D)(1), entitled "[rjeference by court of record," provides, in relevant part, as follows:
(a) Purpose and method.
A court of record may, for one or more of the purposes described in Civ.R.
53 (C)(1), refer a particular case or matter or a category of cases or matters
to a magistrate by a specific or general order of reference or by rule.
(b) Limitation.
A court of record may limit a reference by specifying or limiting the
magistrate's powers, including but not limited to, directing the magistrate
to determine only particular issues, directing the magistrate to perform
particular responsibilities, directing the magistrate to receive and report
evidence only, fixing the time and place for beginning and closing any
hearings, or fixing the time for filing any magistrate's decision on the
matter or matters referred.

56

0A393 - E80
No. 19AP-202

35

officer who took her oral report mistakenly identified IHT as the victim, rather than
appellant. Finally, with regard to the insurance claims, appellant testified she submitted
those claim on her own behalf, not on behalf of IHT, and she did so on the advice of
counsel.

CM
O
CM
O

o
o
CL

<

o>
CL
CO
CM
CO
CM
C
<0

(f 83} The magistrate found appellant's testimony lacked credibility and
determined that appellant had failed to rebut the trial court's preliminary ruling that:
appellant violated the Agreed Entry by her conduct as alleged in appellees' motion to show
cause. In my view, the decision of the magistrate was based solely on the magistrate's
assessment of the weight and credibility of appellant's testimony. Contrary to the
conclusion reached in the majority decision, I do not find that the magistrate prevented
appellant from making arguments or presenting evidence in support of her contention
that she did not engage in the contumacious conduct alleged in appellees' motion to show

o
CM
o

cause. Appellant and her trial counsel simply elected to rely on appellant's testimony to
rebut the allegations. The magistrate cannot be faulted for that decision.

(!)

{f 84} In her objections to the magistrate's decision, appellant persisted in arguing

CM

3
O

o
£

o
ra
o>

that the trial court had misinterpreted the Agreed Entry. She contended that the language
used by the parties in the Agreed Entry did not prohibit her from claiming that she is a
"member" or "owner" of IHT. My reading of appellant's objections reveals that appellant
mischaracterized her purely legal argument regarding contract interpretation as a factual

Q.

a

<
o

3
O

O
.2
£

o

>.
3
O

o
.2
2

c
ra

Li.

issue.1? In overruling appellant's objections, the trial court rejected appellant's contention
that the magistrate had erred by failing to hear evidence and argument regarding the
meaning of the Agreed Entry. Appellant also objected to the magistrate's decision to
disbelieve her testimony that she did not engage in the contumacious conduct alleged in
appellees' motion to show cause. The trial court's May 17, 2017 decision provides, in
relevant part, as follows:
Stewart primarily objects to the Magistrate's Decision on the
basis that she was not provided a full hearing before the Court’s
finding of contempt. However, as noted in Plaintiffs' reply, this
is a false premise. The Court's November 7, 2016 Decision
found that Plaintiffs met their initial burden to demonstrate by
clear and convincing evidence that Stewart had violated the
v The interpretation of a written contract is, in the first instance, a matter of law for the court. Columbus
Countywide Dev. Corp. v. Junior Village ofDublin, Inc., 10th Dist. No. 03AP-73,2003-Ohio-5447,119.

57

0A393 - E81
No. 19AP-202

CM
O
CM
O

o
o
CL
<
o>
2

£L

36

parties’ Agreed Entry. The Court referred the issue of contempt
to [a] Magistrate * * * for a hearing at which Stewart was
provided an opportunity to rebut Plaintiffs' initial showing.
Stewart further argues that her testimony at the hearing
successfully rebutted Plaintiffs' showing. The Court disagrees.
As discussed below, Stewart's testimony was wholly
implausible and belied by the documents presented at the
hearing.
(May 17, 2017 Decision at 4.)
{If 85} "Civil contempt must be demonstrated by clear and convincing evidence."
Brooks-Lee v. Lee, 10th Dist. No. 11AP-284, 2012-OM0-373, H 13, citing Flowers v.
Flowers, 10th Dist. No. 10AP-1176,2011-OIUO-5972, If 13, citing Fidler v. Fidler, 10th Dist.

C9
CM

No. 08AP-284, 2008-OM0-4688, H 14. "The trier of fact is vested with discretion in

CO
CM

determining whether clear and convincing evidence supports a contempt finding/'

c

o

Flowers at U 13, citing Fidler at If 14, citing C.E. Morris Co. v. Foley Constr. Co., 54 Ohio
St.2d 279 (1978). "This is because 1 "[credibility issues are not resolved as a matter of

</)

law, but are left to the trier of fact to determine.

CO
CM
O
CM

3

O

o
o
JX

a
O

V f I!

Flowers at H13, quoting Nott v. Ohio
Dept, of Rehab. & Corr., 10th Dist. No. 10AP-1079, 2011-OIU0-5489, 11 6, quoting
Ciccarelli v. Miller, 7th Dist. No. 03 MA 60, 2004-Ohio-5i23, H 35, citing Lehman v.

n

Haynam, 164 Ohio St. 595 (1956). "Indeed, '[a] reviewing court should not reverse a
decision simply because it holds a different opinion concerning the credibility of the

<

witnesses and evidence submitted before the trial court. A finding of an error in law is a

0)
Q.
Q.

legitimate ground for reversal, but a difference of opinion on credibility of witnesses and
3

O

o
.2
-E

o
c
3
o
O
.E
2
c
<0

u.

evidence is not.'" Flowers at 1113, quoting State v. Wilson, 113 Ohio St.3d 382, 2007Ohio-2202, H 24, citing Seasons Coal Co., Inc. v. Cleveland, 10 Ohio St.3d 77, 80 (1984).
{If 86} Here, the trial court reviewed the transcript of the hearing before the
magistrate and the magistrate's decision. The trial court summarized and discussed
appellant's testimony at the hearing and considered the stated reasons given by the
magistrate for disbelieving appellant. The trial court agreed with the magistrate.
Contrary to the opinion expressed by the majority, I perceive no error in the magistrate's
decision or the trial court's ruling on appellant's objections. The record shows that
appellant was provided an opportunity to submit evidence in support of her claim that
she did not engage in the contumacious conduct alleged in appellees' motion to show

58

0A393 - E82
No. 19AP-202

37

cause. Appellant relied on her own testimony, and the trial court found her testimony
"wholly implausible and belied by the documents presented at the hearing." (May 17,
2017 Decision at 4.) Clearly, the trial court made a credibility determination in reaching
the conclusion it did.

CM
O
CM
O

o
o
Q.

<

o>
Q.
CO

<M

CM
CO
CM

c

<0

{f 87} Nonetheless, the majority concludes the magistrate erred and the trial court
abused its discretion in refusing to consider supplemental evidence submitted by
appellant, pro se, on September 18, 2017.18 The majority criticizes the magistrate for
refusing to exceed the authority granted by the order of reference, failing to sua sponte
reconsider the issue of appellant's liability for contempt, and failing to resolve the issue
based on evidence submitted on the morning of the scheduled sanctions hearing. The
majority then holds that the trial court acted unreasonably, arbitrarily and/or
capriciously when it overruled appellant's objection alleging that the magistrate erred by

o
CM
o

failing to do so. In my view, it would have been manifestly unfair to appellees, and in
contravention of Civ.R. 53, for the magistrate and the trial court to have proceeded in the

<!)

manner suggested by the majority.

CM

3

O

a
o
o
«

ra
<D
o.
a.
<
o
3

O

o
.2
x:
O
>.
3

o

o

.E
3

c
ra

u.

{f 88} Civ.R. 53(D)(4)(d), entitled "[ajction on objections," provides as follows:
If one or more objections to a magistrate's decision are timely
filed, the court shall rule on those objections. In ruling on
objections, the court shall undertake an independent review
as to the objected matters to ascertain that the magistrate has
properly determined the factual issues and appropriately
applied the law. Before so ruling, the court may hear
additional evidence but may refuse to do so unless the
objecting party demonstrates that the party could not, with
reasonable diligence, have produced that evidence for
consideration by the magistrate.
(Emphasis added.)
{f 89} Finally, though appellant referred to the evidence in the supplemental filing
as "newly acquired information," there is no question that all the documents submitted
by appellant on September 18, 2017 were created well prior to the February 8, 2017
evidentiary hearing before the magistrate and could have been produced by appellant at
the hearing. (Appellant's Sept. 18, 2017 Notice at 1.) Thus, the record shows that the
18 On April 3,2017, the trial court granted the motion to withdraw filed by appellant's trial counsel and directed
the parties to submit all future notices and filings to appellant, pro se.

59

0A393 - E83
No. 19AP-202

38

supplemental evidence sought to be introduced by appellant as "newly acquired
information" was not produced at the February 8, 2017 evidentiary hearing because of
appellant's failure to exercise reasonable diligence in acquiring it, not because the
magistrate prohibited appellant from introducing the evidence. In my view, it would have
been unfairly prejudicial to appellees for the trial court to sua sponte reconsider
appellant's liability for contempt based on appellant's supplemental evidence. See Giv.R.
CM

o
CM
O

o
o
Q.

<

o>
CL
CO

a

CM

53(D)(4)(d)- Accordingly, I would hold the trial court did not abuse its discretion in
refusing to consider the supplemental evidence.
{f 90} For the foregoing reasons, I would overrule appellant's assignments of error
and affirm the judgment of the trial court. Because the majority does not, I respectfully
concur in part and dissent in part.

CO
CM

c

CO

o
CM
o
CM

c!)
3

o

o

o

£

o
0)
Q.

a

<
o

3
O

o
.2
£
O
>»
c
3
o

o
£
£

c
ra

u.

60

Appendix F
Court
Franklin County Ohio Court of
Common Pleas Civil Division
Case Caption: RRL Holding Company of Ohio, et al. v. Merrilee Stewart.
Description: Final Appealable order(s) from Franklin County Ohio Court of
Common Pleas Civil Division, Case No. 18CV7212_________________________

Appendix
F

Judgement Entry
12/20/2019

Docket no.
18CV7212

61

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212

0E978 - 024

IN THE FRANKLIN COUNTY COURT OF COMMON PLEAS
CIVIL DIVISION
RRL HOLDING COMPANY OF OHIO,
LLC, ET AL.,

CASE NO. 18CV-7212
JUDGE KIM BROWN

Plaintiffs,
v.
MERRILEE STEWART,
Defendant.

JUDGMENT ENTRY
GRANTING PLAINTIFFS’ MOTION FOR SUMMARY JUDGMENT
FILED NOVEMBER 7. 2019
Rendered this 20th day ofDecember, 2019
This matter is before the Court upon Plaintiffs, RRL Holding Company of Ohio, LLC and
Firefly Agency, LLC’s (collectively “Firefly”) motion for summary judgment filed November 7,
2019. Defendant, Merrilee Stewart (“Stewart”) filed her opposition memorandum on November
21, 2019. Firefly filed its reply memorandum on November 25, 2019. On December 5, 2019, this
Court issued an order to both parties to supplement their arguments with evidence as required
under Civ.R. 56(E). Only Firefly complied with the order. The motion is now ripe for the Court’s
consideration.
INTRODUCTION
In this case, Firefly seeks to declare Stewart a vexatious litigator under R.C. 2323.52. The
parties have been engaged in long-drawn-out litigation since Stewart was removed as President of
Firefly/IHT and as a member of RRL Holding in late 2014. Firefly, through this action, seeks to
curtail anymore litigation by having Stewart declared a vexatious litigator. The procedural history

62

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 025
18CV-7212

of this case is detailed in the Court’s decision filed November 12, 2019, and will not be repeated
here.
FINDINGS OF FACT
The Court finds the following facts to be material and undisputed:
1. Stewart was removed as President of Firefly/IHT and as a member of RRL Holding
Company of Ohio (“RRL Holding”). Kemp Affidavit, ^ . 1. After that, an action in
Franklin County Common Pleas Court was filed and designated Case No. 2015-CV1842 (“Initial case”). Id. On November 10, 2015, the Initial case was stayed and
ordered to arbitration. Id. A three-member arbitration panel found the removal of
Stewart to be lawful and consistent with the parties’ governing documents. Id.
2. After the arbitration panel’s decision, Firefly had to move to compel enforcement of
the arbitration award in the Initial case because Stewart refused to comply. Id., Ex. 2.
3. On January 7, 2018, Stewart filed a motion to vacate the arbitration award. Id., Ex. 3.
A week later she filed a notice of appeal of the trial court’s November 10, 2015 order
to stay the case pending arbitration. Id. Ex. 4. That appeal was dismissed as untimely.
Id., Ex. 5.
4. On February 5, 2018, the trial court entered judgment confirming the arbitration award.
Id., Ex. 6. Stewart appealed that decision. Id., Ex. 7. The court of appeals affirmed.
Id., Ex. 9. Undeterred, Stewart sought jurisdiction in the Supreme Court of Ohio. Id.
Ex 10. The Supreme Court declined jurisdiction. Still undeterred, Stewart moved the
Supreme Court to reconsider that decision. Id. Ex. 11. The Supreme Court again
declined.

Page 2 of 10
63

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212

0E978 - 026
18CV-7212

5. After Stewart exhausted her appeals, she then refused to comply with the trial court’s
judgment affirming the arbitration award. This refusal resulted in multiple motions for
sanctions, magistrate hearings on those motions, magistrate decisions awarding
sanctions, objections to the magistrate decisions, appeals, and appeals being dismissed.
Id. Ex. 15, 16, 17, 18, 21, 24, 28, 30, 31,32, and, 33.
6. Stewart’s conduct has spilled into Wood County Common Pleas Court. Id., Ex. 34.
That case is stayed pending the outcome of the Initial case. Id, Ex. 35. Stewart
appealed that stay and it was dismissed by the Sixth District Court of Appeals. Id., Ex.
36 and 37.
7. In this action, Stewart filed a counterclaim and third-party complaint, and then
improperly removed to federal court. Id., Ex. 43. The case was later remanded. Id.,
Ex. 44.
8. Another notable act, at one point in the Initial case Stewart moved for an advancement
of her fees. Id. Ex. 27. The motion was denied. Id., Ex. 29.
9. Examples of Stewart’s conduct beyond the Franklin County Common Pleas Court
include: filing an ERISA claim in federal court repeating her theories about Firefly
raised in Franklin County Common Pleas Court (Motion, Ex. F.); and filing a complaint
with the Ohio Civil Rights Commission which in response issued a finding of no
probable cause Id., Ex. J.

Page 3 of 10
64

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 027
18CV-7212

LAW AND ANALYSIS
Motion for Summary Judgment
To prevail upon a motion for summary judgment, the moving party must inform the court
of the basis for the motion and identify those portions of the record that demonstrate the absence
of a genuine issue of material fact. Ohio Supreme Court precedent explains:
the movant must be able to point to evidentiary materials of the type listed in Civ.R.
56(C) that a court is to consider in rendering summary judgment .... These
evidentiary materials must show that there is no genuine issue as to any material fact,
and that the moving party is entitled to judgment as a matter of law.... If the moving
party fails to satisfy its initial burden, the motion for summary judgment must be
denied.
Dresher v. Burt, 75 Ohio St. 3d 280, 292-93, 662 N.E.2d 264 (1996).
Additionally, it is well-established that the party responding to a motion for summary
judgment has some burden to provide the Court with evidence as to their reasons for opposition. “A
motion for summary judgment forces the nonmoving party to produce evidence on any issue for
which that party bears the burden of production at trial.” Wing v. Anchor Media, 59 Ohio St.3d 108,
111, 570 N.E.2d 1095 (1991). “It should be noted that placing the above-mentioned requirements on
the moving party does not mean the nonmoving party bears no burden. Requiring that the moving
party provide specific reasons and evidence gives rise to a reciprocal burden of specificity for the
nonmoving party.” Mitseff v. Wheeler, 38 Ohio St.3d 112, 115, 526 N.E.2d 798 (1988). The
nonmoving party may not rest upon the allegations or denials in the pleadings but must affirmatively
demonstrate the existence of a genuine issue of material fact to prevent the granting of a motion for
summary judgment. Cunningham v. Bone Dry Waterproofing, Inc., 66N.E.3d 187,2016-Ohi0-3341,
U 7 (10th Dist.) citingMistejf.

Page 4 of 10
65

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 028
18CV-7212

The facts of Stewart’s conduct are well documented by the voluminous filings. Furthermore,
the facts are uncontested. As such, the Court must now determine whether Firefly is entitled to
judgment as a matter of law.
VEXATIOUS LITIGATOR STATUTE
The question before the Court is whether Stewart is a “vexatious litigator” under R.C.
2323.52. To be a “vexatious litigator” the party must engage in “vexatious conduct.” The Court starts
its analysis with the statutory definitions of these terms.
A “vexatious litigator” is:
[A]ny person who has habitually, persistently, and without
reasonable grounds engaged in vexatious conduct in a civil action or
actions, whether in the court of claims or in a court of appeals, court
of common pleas, municipal court, or county court, whether the
person or another person instituted the civil action or actions, and
whether the vexatious conduct was against the same party or against
different parties in the civil action or actions.
R.C. 2323.52(A)(3). “Vexatious conduct” is defined as the conduct of a party in a civil action that
“obviously serves merely to harass or maliciously injure another party to the civil action,” “is not
warranted under existing law and cannot be supported by a good faith argument for an extension,
modification, or reversal of existing law,” or “is imposed solely for delay.” State ex rel. Sapp v.
Franklin County Court ofAppeals, 118 Ohio St.3d 368, 2008-Ohio-2637, 889 N.E.2d 500, T) 17
quoting R.C. 2323.52(A)(2)(a-c).
The Court’s review is not limited to Stewart’s conduct in this case. In determining a party
a vexatious litigator, a court may consider the consistent rejection of a party’s argument or legal
theories. E.g., Farley v. Farley, 10th Dist. Franklin No. 02AP-1046, 2003-Ohio-3185 f 23; Prime
Equip. Grp. Inc. v. Schmidt, 66 N.E.3d 305, 2016-Ohio-3472 (10th Dist.). Also, courts may
consider prior conduct in other cases. Watkins v. Perry, 107 N.E.3d 574, 2017-Ohio-9347, ^ 35
(11th Dist.) citing Prime Equip.
Page 5 of 10
66

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 029
18CV-7212

FIREFLY’S ARGUMENT IN SUPPORT OF SUMMARY JUDGMENT
Firefly argues Stewart is a vexatious litigator because for four years she has engaged in
habitual litigation that repeated the same unfounded theories about a multi-million dollar criminal
enterprise hatched by her former business partners. Firefly has presented a staggering-list of what
it claims is vexatious conduct. Rather than address all the instances individually, the Court will
consider them in totality.
This ordeal started when Stewart was removed from her position as a member of RRL
Holding. The removal brought about the Initial case. The Initial case was sent to arbitration to
determine the legality of Stewart’s removal. The arbitration panel determined Stewart was
properly removed, and ordered appropriate relief to terminate that relationship. The arbitration
award was confirmed by this Court. Stewart appealed that decision, and the decision was affirmed.
She tried to appeal that decision to the Supreme Court of Ohio, which declined to hear the case.
Unsatisfied, Stewart moved for reconsideration, which was also denied. To this point, Stewart
was not engaging in vexatious conduct, but defiantly—and maybe quixotically—litigating the
merits of her removal from RRL Holding. However, Stewart’s conduct after that point is different.
Ever since Firefly prevailed on the merits, Stewart has refused to accept the result. She has
been sanctioned multiple times for refusing to sign the closing documents which would end the
Initial case. She has filed more appeals in that case which have been dismissed.
Beyond the Initial case, Stewart improperly delayed this case by removing it to federal
court. Stewart has filed other meritless actions in other Ohio Courts and administrative agencies.
There is no good faith basis for Stewart’s actions because they are all attempts to relitigate the
merits of her removal from RRL Holding.
Taken together, Stewart’s activates are habitual and persistent conduct that meets the
definition of “vexatious conduct.” Ealy v. McLin, 2nd Dist. Montgomery No.21934, 2007-OhioPage 6 of 10
67

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 030
18CV-7212

4080, f 25 (Affirming the trial court’s summary judgment that Ealy’s filing of four lawsuits in a
six-month period, all of which were unsupported by any good faith argument or existing law, was
vexatious conduct.).
Since Stewart’s conduct lacks a good faith basis and has been imposed solely for delay, it
is vexatious conduct and she is a vexatious litigator. Thus, Firefly is entitled to judgment as a
matter of law.
STEWART’S ARGUMENTS AGAINST SUMMARY JUDGMENT
After reviewing Stewart’s opposition to the motion for summary judgment, the Court finds it
necessary to describe some of the differences between a motion for summary judgment and a motion
to dismiss for failure to state a claim upon which relief can be granted. They are different filings and
serve different purposes in litigation. A motion to dismiss for failure to state a claim upon which
relief can be granted is procedural and tests the sufficiency of the complaint. State ex rel. Hanson v.
Guernsey County Bd. of Commrs., 65 Ohio St.3d 545, 548, 605 N.E.2d 378 (1992). A decision
granting a motion to dismiss is not a judgment on the merits of the complaint. Id. 547-48. “In
resolving a Civ.R. 12(B)(6) motion to dismiss, the trial court may consider only statements and facts
contained in the pleadings, and may not consider or rely on evidence outside the complaint.”
Stainbrookv. Ohio Sec’y ofState, 10th Dist. No. 16AP-314, 2017-Ohio-1526,

11.

Differently, a motion for summary judgment seeks a decision on the merits. A motion for
summary judgment allows the trial court to determine if the moving party is entitled to affirmative
relief. Civ.R. 56. The motion for summary judgment must be supported by evidence that shows there
is no genuine issue as to any material fact and that the moving party is entitled to judgment as a matter
of law. Id

Page 7 of 10
68

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212

0E978 - 031
18CV-7212

Stewart’s arguments against summary judgment are the same arguments she raised in her
motion to dismiss and the majority of her arguments are not merit arguments. Stewart argues
summary judgment should be denied because: (1) Firefly’s claim does not meet basic pleading
requirements; (2) Firefly’s claim violates claims splitting; (3) protected activity; and (4) res
judicata. Stewart’s arguments about failure to meet pleading requirements and claim splitting were
rejected in the Court’s November 15, 2019 decision denying her motion to dismiss and will not be
revisited here. Likewise, Stewart’s fourth argument, although not directly addressed in the Court’s
November 15,2019 decision, fails for similar reasons. The November! 5,2019 decision explained
that the vexatious litigator statute expressly provides for a party to bring a separate action to declare
another party a vexatious litigator. For that same reasoning, bringing a separate action under R.C.
2323.52(B), is permissible regardless of the parties’ separate pleadings in the Initial case and res
judicata does not apply.
Stewart’s lone merits argument is that her activities are protected by statute and therefore
not vexatious conduct. In support she cites R.C. 4113.52(A)(1)(a). It states:
If an employee becomes aware in the course of the employee’s
employment of a violation of any state or federal statute or any
ordinance or regulation of a political1 subdivision that the
employee’s employer has authority to correct, and the employee
reasonably believes that the violation is a criminal-offense that is
likely to cause an imminent risk of physical harm to persons or a
hazard to public health or safety, a felony, or an improper
solicitation for a contribution, the employee orally shall notify the
employee’s supervisor or other responsible officer of the
employee’s employer of the violation and subsequently shall file
with that supervisor or officer a written report that provides
sufficient detail to identify and describe the violation. If the
employer does not correct the violation or make a reasonable and
good faith effort, to correct the violation within twenty-four hours
after the oral notification or the receipt of the report, whichever is
earlier, the employee may file a written report that provides
sufficient, detail to identity and describe the violation with the
prosecuting authority of the county or municipal corporation W'here
Page 8 of 10
69

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 032
18CV-7212

the violation occurred, with a peace officer, with the inspector
general if the violation is within the inspector general’s jurisdiction,
or with any other appropriate public official or agency that has
regulatory authority over the employer and the industry, trade, or
business in which the employer is engaged.
R.C. 4113.52(A)(1)(a).

Stewart argues, per this statute, she had a statutory' duty to expose

Plaintiff’s activity and that this vexatious litigator action is improper retaliation.

Stewart’s

argument fails for two reasons.
First, Stewart’s argument lacks a factual foundation. Her opposition states she is serving
as “an inside informant for the Federal Bureau of Investigation and the United States Department
of the Treasury” to expose Firefly’s redlining and anti-trust violations. However, her claim is not
supported with evidence to prove these facts, such as an affidavit with documentation from these
agencies avowing her work.
Second, Stewart has not complied with the statute’s procedural requirements to obtain
relief. Assuming Firefly’s removal of Stewart was retaliation for her reporting a felony as she
claims, to claim a remedy under the statute, she must prove she complied with the statute’s
requirements. She needs to show she properly reported the felony by filing a report, with sufficient
detail. R.C. 4113.52(A)(1)(a). After, she is required to “bring a civil action.. .within one hundred
eighty days after the disciplinary' or retaliatory' action was taken.” R.C. 4113.52(D). Stewart has
failed to provide evidence that she complied with this statute, such as attaching the reports she
would have filed according to R.C. 4113.52(A)(1)(a). Also, she has failed to show she claimed
this remedy within 180 days of the alleged retaliation under R.C. 4113.52(D). Thus, the Court
finds Stewart’s arguments against summary judgment unpersuasive.

Page 9 of 10
70

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212

0E978 - 033
18CV-7212

CONCLUSION
For these reasons, the Court finds there is no material question of fact and that Firefly is
entitled to judgment as a matter of law. Therefore, Firefly’s motion for summary judgment is
GRANTED.
In accordance with the grant of summary' judgment, the Court ORDERS this relief
pursuant to R.C. 2323.52:
Pursuant to the Court’s finding and R.C. 2323.52(D)(l)(a-c), without first seeking leave of
this Court, Stewart: shall not institute legal proceedings in the court of claims or in a court
of common pleas, municipal court, or county court; shall not continue any legal
proceedings that Stewart has instated in the court of claims, court of common pleas,
municipal court, or county court; shall not make any application, other than an application
for leave to proceed under R.C. 2323.52(F)(1), in any legal proceedings instituted by
Stewart or another person in the court of claims, court of common pleas, municipal court,
or county court;
This order will run indefinitely, pursuant to R.C. 2323.52(E); and
The Clerk shall send a certified copy of this order to the Supreme Court of Ohio for
publication in a manner the Supreme Court of Ohio deems appropriate under R.C.
2323.52(H).
All court costs are to be paid by Stewart.
IT IS FURTHER ORDERED, ADJ UDGED, AND DECREED that there is no just cause
for delay and this Judgement Entry’ is final.
* * * THIS IS A FINAL APPEALABLE ORDER
IT IS SO ORDERED.

Page 10 of 10
71

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212

0E978 - 034

Franklin County Court of Common Pleas

Date:

12-20-2019

Case Title:
Case Number:

RRL HOLDING COMPANY OH ET AL -VS- MERRILEE
STEWART
18CV007212

Type:

JUDGMENT ENTRY

It Is So Ordered.

i y
!

/s/ Judge Kim Brown

Electronically signed on 2019-Dec-20

page 11 of 11

72

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Dec 20 10:46 AM-18CV007212
0E978 - 035

Court Disposition
Case Number: 18CV007212
Case Style: RRL HOLDING COMPANY OH ET AL -VS- MERRILEE
STEWART
Case Terminated: 18 - Other Terminations
Final Appealable Order: Yes
Motion Tie Off Information:
1. Motion CMS Document Id: 18CV0072122019-11 -0799980000
Document Title: 11-07-2019-MOTION FOR SUMMARY
JUDGMENT - PLAINTIFF: RRL HOLDING COMPANY OH
Disposition: MOTION GRANTED

73

Appendix G
Appendix
G

Judgement Entry
03/15/2019

Docket no.
15CV1842

Court
Franklin County Ohio Court of
Common Pleas Civil Division
Case Caption: RRL Holding, et al. v. Stewart, et al._____________________ _
Description: Appealable order from special proceedings from Franklin
County Ohio Court of Common Pleas Civil Division, Case No. 15CV1842

74

OKS 3 8

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

Has

IN THE COURT OF COMMON PLEAS, FRANKLIN COUNTY, OHIO
CIVIL DIVISION
RRL HOLDING COMPANY
OF OHIO, LLC, et al.,
Plaintiffs,
Case No. 15CVH-1842
v.
JUDGE K. BROWN

CM

o
CM
O

o
o
Q.

<

MERRILEE STEWART, et al.,
Defendants.

0)

r

<
rr
<M
<0

o>
o
Q.

DECISION AND ENTRY
GRANTING MOTION OF PLAINTIFFS TO SHOW CAUSE.
FILED MARCH 7. 2018

<

DENYING DEFENDANT’S MOTION TO SHOW CAUSE. FILED MARCH 20. 2018

CM

DENYING AS MOOT DEFENDANT’S MOTIONS TO STAY. FILED MARCH 11.
2018 AND OCTOBER 26. 2018

o>
o
OT
3
O

u

o

£

£
o
«
ra
a>

Q.

a

OVERRULING DEFENDANT’S OBJECTIONS TO MAGISTRATE’S DECISION
AND DENYING DEFENDANT’S MOTION FOR SANCTIONS ON FRITZ W.
GRIFFIOEN AND ATTORNEY JAMES R. CARNES. ESQ..
FILED JANUARY A. 2010
AND
ADOPTING MAGISTRATE’S DECISION. FILED DECEMBER 21. 2018

<

3
O

GRANTING MOTION OF PLAINTIFFS TO SHOW CAUSE.
FILED JANUARY 11. 2010

o
.2

and

■C

o

>.
3

o

o
.E
2

C
(0

DENYING DEFENDANT’S MOTION FOR SANCTIONS ON FRITZ W.
GRIFFIOEN AND ATTORNEY JAMES R. CARNES. ESQ..
FILED JANUARY 27. 2010
Rendered this 15th day ofMarch, 2019

LU

This matter is before the Court upon the Motion of Plaintiffs RRL Holding Company
of Ohio, LLC and IHT Insurance Agency Group, LLC (hereinafter collectively “Plaintiffs”) to
Show Cause, filed March 7, 2018.

On March 20, 2018 Defendant Merrilee Stewart

(hereinafter “Stewart”) filed her Memorandum Contra and Motion to Show Cause.

75

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

OKS38 - H99
15CVH-1842

Plaintiffs filed their Memorandum Contra Defendant’s Motion to Show Cause on March 26,
2018. Plaintiffs filed a Supplemental Memorandum in Support of March 7, 2018 Motion to
Show Cause on October 18, 2018. Stewart filed a Motion for Extension of Time to respond
to Plaintiffs’ Motion of October 12, 2018 until 14 Days after the Conclusion of Appeal to the
Supreme Court of Ohio. As more than 14 days have passed since the Supreme Court denied
CM

O
CM
O

Stewart’s appeal, Stewart’s Motion for Extension is hereby DENIED as moot.

o
o

This matter is also before the Court upon Stewart’s Motions to Stay pending her

Q.

<

O)

<

appeals to the Tenth District Court of Appeals and to the Ohio Supreme Court, filed March

rt
CO
O)

o

Q.

11, 2018 and October 26, 2018. As Stewart has now exhausted those appeals, Stewart’s
Motions to Stay are hereby DENIED as moot.

<

o>
o

This matter is also before the Court upon Stewart’s Objection to Magistrate’s

in

Decision of December 21, 2018 and Motion for Sanctions on Fritz W. Griffioen and Attorney

□
O
o

James R. Carnes, Esq., filed January 4, 2019. Plaintiffs filed their Response on January 5,

CM

o

£

O
«

n
o>

2019.
This matter is also before the Court upon the Motion of Plaintiffs to Show Cause filed

Q.

a

<

January 11, 2019. Stewart filed her Memorandum Contra and Motion for Sanctions on Fritz

3

W. Griffioen and Attorney James R. Carnes, Esq. on January 27, 2019. Plaintiffs filed their

O

a
.2

Reply on January 29, 2019.

£

o
D
O

o
.E
2

C
<0

LL.

These matters are ripe for determination by the Court.
RELEVANT BACKGROUND
Plaintiff RRL Holding Company of Ohio, LLC (hereinafter “RRL”) is the sole member
and owner of Plaintiff IHT Insurance Agency Group, LLC (hereinafter “IHT”). IHT sells and
services insurance-related products. Until at least December 2014, Stewart was a member
of RRL and president of IHT. In October 2014, Plaintiffs discovered that Stewart had
created a competing entity, TRG United Insurance, LLC (hereinafter “TRG”). Plaintiffs
Page 2 of 9
76

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
OSS38 - S16

15CVH-1842
accused Stewart of violating RRL’s buy/sell agreement which led to a series of unsuccessful
negotiations relating to the redemption of Stewart’s membership interest in RRL. On
December 30, 2014, Plaintiffs notified Stewart that she had been involuntarily removed
from RRL and that her relationship with IHT had been terminated. Stewart claimed her
interest in RRL was not properly redeemed and she therefore remained a member.
CM
O
CM
O

On March 2, 2015, Plaintiffs initiated the instant action, alleging that Stewart

CL

improperly retained RRL/IHT property and removed $19,009.44 from IHT’s bank account.

o
o

<

o
r>

s

On May 28, 2015, the parties met with Visiting Judge John Bender to discuss a resolution to

co

Plaintiffs’ request for a preliminary injunction. The parties executed an Agreed Entry,

<

o>
o
Q.

consenting that during the pendency of the case Stewart and TRG would not hold

<

o>
O
CM

in

themselves out as being affiliated with Plaintiffs.
On September 18, 2015, Plaintiffs moved the Court for an order to show cause

3

O

o

alleging that Stewart violated the Agreed Entry by contacting IHT’s human resources

o

£
A

manager stating that her health insurance had been improperly cancelled. The Court

re

denied the motion finding that Stewart did not violate the purpose of the parties’ agreement

<
»*—

which was to prevent Stewart from holding herself out to outsiders as being affiliated with

o
«
0)
Q.
Q.

iM

3

Plaintiffs.

O

o
.2

Plaintiffs further moved the Court to compel arbitration pursuant to RRL’s buy/sell

■C

o

>

c

agreement. On November 10, 2015, the Court granted the request, finding that Stewart’s

3

O

defenses and counterclaims related to the buy/sell agreement which contains an agreement

c
re

to arbitrate disputes.

o
.E
3
LL

On August 10, 2016, Plaintiffs filed a second motion for an order to show cause.
Plaintiffs alleged that Stewart held herself out as a current member of IHT in claims filed
with the Ohio Civil Rights Commission, the Columbus Police Department, Hartford
Insurance, and Liberty Mutual Insurance. Plaintiffs submitted documentation in support of
Page 3 of 9
77

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

OSS 3 8 - E.37
15CVH-1842

each allegation. Stewart countered that she did not violate the “spirit” of the Agreed Entry
and argued that the Entry became moot after the Court granted Plaintiffs’ motion to compel
arbitration. She also filed her own motion to show cause, alleging that Plaintiffs failed to
participate in arbitration in violation of the Court’s order.
On November 7, 2016, the Court summarily rejected Stewart’s arguments, noting
CM

o

CM
O

o
o

o.
<
cn
<

co
cn
o
Q.

that injunctions are routinely granted pending arbitration and they do not expire upon
orders to arbitrate. The Court further found that Stewart had repeatedly violated the
parties’ Agreed Entry by holding herself out as a current member/employee of RRL/IHT.
The Court granted Plaintiffs’ motion for an order to show cause and issued an Order of
Reference setting a hearing before Magistrate Harildstad, whereat Stewart was ordered to

<

cn
o

appear and show cause for why she should not be held in contempt.

CM

«
3
O

o
o

£

o
«

The Court determined that Stewart’s motion alleging that Plaintiffs failed to arbitrate
was frivolous and that Plaintiffs had been diligently attempting for many months to pursue
arbitration. Without any support, Stewart had claimed that the parties must arbitrate

a

through the American Arbitration Association and alleged that Plaintiffs’ refusal to do so

o.
<
*o

violated the Court’s order. Prior to Stewart’s motion to show cause, Plaintiffs agreed to

a>o.

3

arbitrate through the AAA despite having no contractual obligation. Stewart’s counsel

a
.2

emailed Plaintiffs’ counsel stating that Stewart would withdraw her motion to show cause as

o

£

o

>»
3
O

o
.E
2
c

£
Li.

moot but she later refused.

Plaintiffs moved for sanctions against Stewart requesting

reimbursement for responding to Stewart’s frivolous motion. The Court found that request
well taken and referred the matter of sanctions for Magistrate Harildstad’s consideration.
On February 8, 2017, Magistrate Harildstad held a hearing pursuant to the Court’s
order. Rather than show cause for why she should not be held in contempt, Stewart sought
to relitigate the terms of the parties’ Agreed Entry and the Court’s ruling that she had
violated its terms. At the hearing, Stewart testified that the Ohio Civil Rights Commission
Page 4 of 9
78

OKS 3 8

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

K38
15CVH-1842

misquoted her in its Report, that the Columbus Police Department mistakenly identified
IHT as the victim rather than herself personally, and that Hartford Insurance and Liberty
Mutual Insurance incorrectly concluded that she was filing the claims on IHT’s behalf. In a
February 13, 2017 Decision, Magistrate Harildstad recommended the imposition of financial
sanctions against Stewart and continued the hearing to a later date at which the parties
CM
O
CM

o
o
o

could address the issue of appropriate sanctions including Plaintiffs’ legal fees.

<

On February 27, 2017, Stewart filed her objections to Magistrate Harildstad’s

5
<

Decision. On May 17, 2017, the Court overruled Stewart’s objections and adopted the

Q.

O)

co
o>
o

a

Magistrate’s Decision. The Court referred the matter to Magistrate Pamela Browning for
the following determinations:

<

o>

1) The appropriate sanction (s) for Stewart’s four separate violations of the Agreed
Entry, including, but not limited to legal fees expended by Plaintiffs in the
prosecution of their Motion to Show Cause dated August 10, 2016;

O
CM

(!)
3

o

o

2) The appropriate sanction(s) for Stewart’s failure to withdraw her frivolous
Motion to Show Cause dated August 24, 2016; and

o

£

o

3) Whether Stewart should be held in contempt for her false testimony at the
hearing before Magistrate Harildstad on February 8, 2017, and if so, the
appropriate sanction(s).

<0
<D
Q.
Q.

<

On September 18, 2017, Magistrate Browning conducted a show-cause and sanctions
3

o

hearing.

£

Plaintiffs $27,034.08 in attorney fees from Stewart and ordering Stewart to pay fines in the

a
.2

o

<*n

On December 21, 2018, Magistrate Browning issued her decision awarding

>N

3
O

o
.£
2

amount of $2,750.00 to the Franklin County Clerk of Courts. Stewart has filed an Objection
to Magistrate Browning’s decision.

c

(0

While the above show-cause proceedings were pending, the arbitrators issued their

u.

December 11, 2017 Final Award in American Arbitration Association Case No. 01-16-00039163.

The Court confirmed the Award on February 5, 2018.

Stewart unsuccessfully

appealed the Court’s confirmation of the Award. Her appeals are now exhausted.

Page 5 of 9
79

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
OKS38 - £49

15CVH-1842
On March 7, 2018, Plaintiffs filed a Motion to Show Cause asserting that Stewart has
refused to execute, as required by the Award, certain contractually required documents
confirming her removal as a member of RRL within 30 days of the Award.
On January 11, 2019, Plaintiffs filed a Motion to Show Cause asserting that Stewart
has again violated the terms of the May 28, 2015 Agreed Entry by submitting another
CM
O
CM
O

o
o

insurance claim to Hartford under IHT’s insurance policy.

<

LAW AND ANALYSIS

<

Objection to Magistrate’s Decision of December 21. 2018 and Motion for
Sanctions on Fritz W. Griffioen and Attorney James R. Carnes. Esq..
filed January i. 2010

Q.

o>
ry

CO
O)

o

Q.

Magistrates serve in an advisory capacity to the court, and, therefore, cannot render

<

O
O
CM

</»
3
O

o

final judgments. Gilson v. Am. Inst, ofAlt. Med., 10th Dist. No. 15AP-548, 20i6-Ohio-i324,
H75, 62 N.E.3d 754. Accordingly, when a matter is referred to a magistrate, the Court
remains the final finder of fact. Id.

The Court undertakes a de novo review of the

o

£

magistrate’s decision when objections are filed in response to any advisory opinion rendered

o
a

by the magistrate. Id. at H77. The Court reviews the record and affords no deference to the

0)

a
a

<

ig
3

underlying decision. See Fravel v. Columbus Rehab. & Subacute Inst., 10th Dist. No. 15AP782, 2015-0^0-5125, H17,53 N.E.3d 953.

O

o
.2

On May 17, 2017, this Court overruled Stewart’s Objections to Magistrate

-C

o
3
O

o
.E
2
c

(0

u.

Harildstad’s February 13, 2017 Decision finding her in contempt, noting that at the hearing,
“Rather than show cause why she should not be held in contempt, Stewart sought to
relitigate the terms of the parties’ Agreed Entry and the Court’s ruling that she has violated
its terms.” (May 17, 2017 Decision and Entry at p.3.)
The Court set the hearing at issue before Magistrate Browning to determine the
appropriate sanctions for Stewart’s contempt and for Stewart to show cause why she should
not be held in contempt again for lying under oath during the first hearing. (Id. at p.7.) As
Page 6 of 9
80

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

OSS 3 8 - BL50
15CVH-1842

Magistrate Browning noted in her December 21, 2018 Decision, Stewart did the same thing
at the hearing at issue. “Stewart sought (yet again) to relitigate” the Court’s prior rulings.
(December 21, 2018 Magistrate’s Decision at p. 3.)
Unsurprisingly, Stewart’s objection to Magistrate Browning’s Decision is nothing
more than another attempt to relitigate the Court’s prior rulings. She offers no objection to
CM

o
CM
O

o
o
Q-

<

the appropriateness of the sanctions or to the amount, or to the Magistrate’s finding that
Stewart failed to show cause why she should not be held in contempt for her perjury.

o>

<
<M

co
O)
o

a

Rather, as stated by Plaintiffs, “she again argues that she never should have been held in
contempt in the first instance and provides a rambling brief that runs the gamut from
raising double-jeopardy under Ohio’s Code of Military Justice (p. 6) to the Civil Rights Act

<

a>
O
CM

in

of 1871 (also known as the “Ku Klux Klan Act.” p. 43) to 18 U.S.C. Section 1701 (Obstruction
of mails generally, p. 42).” (Plaintiffs’ Response p. 2.) For these reasons, the Court finds

3

O

o

Stewart’s objections as well as her motion for sanctions to be without merit.

o
u

o
«

ra
0)
a.

Q.

<

Having overruled Stewart’s objections, the Court adopts Magistrate Browning’s
Decision, dated December 21, 2018.
Motion to Show Cause, filed March 7,2018

3

Plaintiffs have moved for an additional show cause hearing and a finding that

o
.2

Stewart is in contempt of the Court’s February 5, 2018 Judgment Entry on the basis that

o

£

o

>

c

Stewart has refused to execute, as required by the Award, certain contractually required

3

O

o
.£
3

c
ra

11.

documents confirming her removal as a member of RRL within 30 days of the Award.
• With respect to the Closing Documents that Stewart was required to execute, the
Award, which was incorporated into this Court’s February 5, 2018 Judgment Entry
confirming the Award, provided that:
Ms. Stewart shall . . . (ii) execute and deliver to RRL the Member Interest
Redemption Agreement, and all related documents attached as Exhibits to the
Buy/Sell Agreement (Exs. A-E) (hereinafter Closing Documents), and any
Page 7 of 9
81

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842

OSS 3 8 - BLE1
I5CVH-1842

other documents necessary to the effectuation of the complete transfer of Ms.
Stewart’s membership interests; and (iii) close such transaction within 30
days of the Award. RRL and its remaining members are directed to finalize
and present to Ms. Stewart the Closing Documents within 10 days of the
Award.
(Award at p.11.) The Membership Interest Redemption Agreement and the Exhibits to the
Buy/Sell Agreement described in the Award are specific, pre-drafted documents
CN

o
CM
o
o
o

incorporated into the parties’ contract.

<

Plaintiffs’ counsel sent Stewart the Closing Documents on December 18, 2017 (prior

s

to the Court’s February 5, 2018 Judgment Entry) and on February 9, 2018 (following the

<N

co

Court’s February 5, 2018 Judgment Entry). Stewart has refused to execute the Closing

a

Documents.

Q.

o>

<
o>
o

<

o>
©
CN

</>

iM

3
O

o
o

The Court agrees that Stewart’s refusal to execute the Closing Documents is in
violation of the Court’s February 5, 2018 Judgment Entry, which confirmed and
incorporated the Award. As such, the Court finds Plaintiffs’ motion for an order to show
cause well taken. The Court will set a hearing at which Stewart is ordered to appear and

o
«
ra

a)Q.
Q.

<

show cause for why she should not be held in contempt for her failure to comply with the
Court’s February 5, 2018 Judgment Entry and, if she is unable to do so, the Court will

in

3

o
o
.2
JZ
O
3
O

o
.£
2

c
ra

u.

consider the appropriate sanction(s) for Stewart’s contempt.
For the same reasons, the Court finds Stewart’s March 20, 2018 Motion to Show
Cause to be without merit.
Motion to Show Cause, filed January 11, 2019
Plaintiffs also have moved for an additional show cause hearing and a finding that
Stewart is in contempt of the May 28, 2015 Agreed Entry on the basis that Stewart has
submitted another claim to Hartford under IHT/Firefly’s1 insurance policy.

1 Firefly is the new name for IHT.
Page 8 of 9
82

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
0KSS8 - K32

15CVH-1842
On December 17, 2018, IHT/Firefly received notice that Stewart contacted Hartford
Insurance to report a claim under IHT/Firefly’s policy. (January 11, 2019 Motion, Ex A.)
The insured under the policy is IHT/Firefly. (Id.)
The Court agrees that Stewart’s actions violated the terms of the parties’ May 28,
2015 Agreed Entry. The Court has already held Stewart in contempt and sanctioned her for
CM
O
CM
O

the same conduct. As such, the Court finds Plaintiffs’ motion for an order to show cause

a.
<

well taken. The Court will set a hearing at which Stewart is ordered to appear and show

2
<

cause for why she should not be held in contempt for her failure to comply with the May 28,

o
o
O)

co
o>
o

a

2015 Agreed Entry and, if she is unable to do so, the Court will consider the appropriate
sanction(s) for Stewart’s contempt. For the same reasons, the Court finds Stewart’s January

<

o
o

27, 2019 Motion for Sanctions to be without merit.

CM

in

CONCLUSION

3

O

o

Accordingly, the Court OVERRULES Defendant Merrilee Stewart’s Objections,

o
■itf

A
o
«

filed January 4, 2019, and adopts the Decision of Magistrate Browning rendered December

ra

21, 2018. Plaintiffs’ Motions to Show Cause, filed March 7, 2018 and January 11, 2019, are

<

hereby GRANTED. Stewart’s Motions for Sanctions, filed January 4, 2019 and January 27,

3

2019, are hereby DENIED. Stewart’s Motion to;Show Cause, filed March 20, 2018, is

o
.2

hereby DENIED. Stewart’s Motions to Stay, filed March 11, 2018 and October 26, 2018, are

<D
Q.
Q.

O

£

o

>

c

3
O

o
.2
3
c
ra

hereby DENIED as moot.
This matter will be set for a hearing to determine whether Stewart should be held in
contempt for her refusal to execute, as required by the Award, certain contractually required

U-

documents confirming her removal as a member of RRL within 30 days of the Award and
for submitting another claim to Hartford under IHT/Firefly’s insurance policy, and if so, the
appropriate sanction(s).
IT IS SO ORDERED.
Page 9 of 9
83

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
0S538 - £83

CM
O
CM
O

Franklin County Court of Common Pleas

o
o
Q_

<

0>

Date:

03-15-2019

Case Title:
Case Number:

RRL HOLDING COMPANY OHIO LLC ET AL -VS- MERRILEE
STEWART ETAL
15CV001842

Type:

ENTRY

<
9
CO

o>
o
Q.

<

o>
o
CM

«
3
O

o
o

It Is So Ordered.

o

"J y

«

co

/

0)
Q.

Q.

<

/s/ Judge Kim Brown
3
O

o
.2

O
>.

Electronically signed on 2019-Mar-15

page 10 of 10

c

3
O

o
£
£

c
co

lj-

84

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
OKS38 - £94

Court Disposition
Case Number: 15CV001842
Case Style: RRL HOLDING COMPANY OHIO LLC ET AL -VSMERRILEE STEWART ET AL
CM
O
CM
O

o
o
0.

<
O)
<
co
a>
o

a

<

o
o
CM

</>

Motion Tie Off Information:
1. Motion CMS Document Id: 15CV0018422I
'980000
Document Title: 03-07-2018-MOTION FOR RULE TO SHOW
CAUSE - PLAINTIFF: RRL HOLDING COMPANY OHIO LLC
Disposition: MOTION GRANTED
2. Motion CMS Document Id: 15CV0018422I
980000
Document Title: 03-11 -2018-MOTION TO STAY - DEFENDANT:
MERRILEE STEWART
Disposition: MOTION IS MOOT

3
O

o

o

«>
o
ra

3. Motion CMS Document Id: 15CV0018422I
'980000
Document Title: 10-26-2018-MOTION TO EXTEND TIME DEFENDANT: MERRILEE STEWART
Disposition: MOTION IS MOOT

a>
a
a

<

3
O

O

.9

£

4. Motion CMS Document Id: 15CV0018422I
'960000
Document Title: 10-26-2018-MOTION TO STAY - DEFENDANT:
MERRILEE STEWART
Disposition: MOTION IS MOOT

o

>.

c
3
O

o
.£
2

c
n
u.

5. Motion CMS Document Id: 15CV00184221
'980000
Document Title: 01-04-2019-MOTION FOR SANCTIONS DEFENDANT: MERRILEE STEWART
Disposition: MOTION DENIED

85

Franklin County Ohio Clerk of Courts of the Common Pleas- 2019 Mar 15 1:22 PM-15CV001842
OSS38 - S5B

6. Motion CMS Document Id: 15CV0018422I
970000
Document Title: 01-04-2019-OBJECTION TO - NON-PARTY:
MERRILEE STEWART
Disposition: OBJECTION DENIED

CM
O
CM
O

o
o

7. Motion CMS Document Id: 15CV0018422I
'980000
Document Title: 01-11-2019-MOTION FOR RULE TO SHOW
CAUSE - PLAINTIFF: RRL HOLDING COMPANY OHIO LLC
Disposition: MOTION GRANTED

:

CL

<
o>
<
co
o>
o

8. Motion CMS Document Id: 15CV0018422I
970000
Document Title: 01 -27-2019-MOTION FOR SANCTIONS DEFENDANT: MERRILEE STEWART
Disposition: MOTION DENIED

Q.

<

o>
o
CM

<0

•M

3
O

o

9. Motion CMS Document Id: 15CV0018422I
'950000
Document Title: 01 -27-2019-MOTION FOR SANCTIONS DEFENDANT: MERRILEE STEWART
Disposition: MOTION DENIED

o
U

o
ra
a>

a.
a.

<

3
O

o
.2
x:
O

><

3
O

o
£
2c

ra
u.

86

Appendix H
Appendix
H

Judgement Entry
11/10/2015

• ;-

Docket no.
15CV1842

Court
Franklin County Ohio Court of
Common Pleas Civil Division
Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Stay Order from Franklin County Ohio Court of Common Pleas
Civil Division, Case No. 15CV1842______________ _______________________

87

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B20

IN THE COURT OF COMMON PLEAS, FRANKLIN COUNTY, OHIO
CIVIL DIVISION
RRL HOLDING COMPANY
OF OHIO, LLC, et al.,
Plaintiffs,
Case No. 15CVH-1842
v.
JUDGE K. BROWN
MERRILEE STEWART, et al.,
Defendants.
DECISION AND ENTRY DENYING PLAINTIFFS’ MOTION TO SHOW CAUSE
AND GRANTING IN PART PLAINTIFFS’ MOTION TO
STAY PROCEEDINGS PENDING ARBITRATION
Rendered this 10th day ofNovember, 2015
This matter is before the Court upon the Motion to Compel Arbitration and Stay
Litigation, filed by Plaintiffs RRL Holding Company of Ohio, LLC and IHT Insurance
Agency Group, LLC (hereinafter collectively “Plaintiffs”) on July 20, 2015. On August 13,
2015, Defendants Merrilee Stewart and TRG United Insurance, LLC (hereinafter collectively
“Defendants”) filed a Memorandum Contra. Plaintiffs filed their Reply on August 28, 2015.
This matter is also before the Court upon Plaintiffs’ Motion to Show Cause, filed
September 18, 2015.

On October 2, 2015, Defendant Merrilee Stewart (hereinafter

“Stewart”) filed a Memorandum Contra. Plaintiffs filed a Reply on October 12, 2015.
The motions are fully briefed and ripe for consideration by the Court.
BACKGROUND
Plaintiff RRL Holding Company of Ohio, LLC (hereinafter “RRL”) is the sole member
and owner of Plaintiff IHT Insurance Agency Group, LLC (hereinafter “IHT”).

IHT’s

primary business operation is the sale and service of insurance-related products to
consumers and businesses through its network of independent producers. RRL and IHT are

88

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B21
15CVH-1842

each governed by operating agreements. (Am. Comp. Exs. A, C). RRL is also regulated by a
buy/sell agreement executed in 2012. (Am. Comp. Ex. G).
Until at least December 2014, Stewart was a member of RRL and the president of
IHT. Accordingly to Plaintiffs, in early 2014, Stewart began missing work and neglecting
her duties as president.

In October 2014, RRL’s members confronted Stewart after

discovering that she had created a competing entity, TRG United Insurance, LLC
(hereinafter “TRG”). Plaintiffs told Stewart that her creation of TRG violated the terms of a
non-compete provision contained in the buy/sell agreement. Stewart and RRL engaged in a
series of unsuccessful negotiations relating to the redemption of her membership interest in
RRL. Ultimately, on December 30, 2014, Plaintiffs notified Stewart’s legal counsel that she
had been involuntarily removed from RRL and that her relationship with IHT had been
terminated.
On March 2, 2015, Plaintiffs initiated the instant action, alleging that Stewart has
improperly retained client data and a cell phone paid for by Plaintiffs. Plaintiffs further
allege that, without authority to do so, Stewart caused $19,009.44 to be removed from IHT’s
operating account. Plaintiffs assert that Stewart and TRG have breached their fiduciary
duty to Plaintiffs and have improperly converted Plaintiffs’ property. Plaintiffs request
monetary damages, replevin, and injunctive relief.
Stewart and TRG filed a combined Answer and Stewart asserted eight counterclaims.
Stewart submits that she remains an active member of RRL, as her interest has not been
properly redeemed under either RRL’s operating agreement or buy/sell agreement. Stewart
alleges that Plaintiffs have breached various agreements since her alleged termination, by
failing to make guaranteed payments and disbursements, failing to provide her with health
and life insurance, and failing to pay her commission payments. Stewart further asserts that

Page 2 of 6
89

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B22
15CVH-1842

Plaintiffs have made various defamatory statements relating to her association with RRL
and IHT.
On May 28, 2015, the parties met with Visiting Judge John Bender to discuss a
resolution to Plaintiffs’ request for a preliminary injunction.

The parties executed an

Agreed Order, consenting that during the pendency of this action: 1) Defendants will not
hold themselves out as being affiliated with Plaintiffs; 2) Defendants will refrain from
destroying any data; 3) Defendants will refrain from accessing IHT’s financial accounts; 4)
Defendants will not solicit business from IHT’s employees, agents, or producers, or use any
of IHT’s trade secrets; and 5) Plaintiffs will timely forward all mail and email addressed to
Stewart.
Plaintiffs now move the Court to stay this action and compel Defendants to submit
their defenses and counterclaims to binding arbitration. Plaintiffs further move the Court
for an order to show cause, alleging that Stewart violated the May 28, 2015 Agreed Order by
sending an email holding herself out as a current member of IHT.
LAW AND ANALYSIS
Motion to Show Cause
On September 18, 2015, Plaintiffs moved this Court for an Order to Show Cause as to
why Stewart should not be held in contempt for violating the terms of the May 28, 2015
Agreed Entry. Plaintiffs allege that Stewart contacted IHT’s human resources manager,
LizAnn Mayhill, on August 27, 2015, stating that her health insurance had been improperly
cancelled, demanding that IHT place her back on IHT’s group plan, and requesting that IHT
reimburse her for premium payments that she had made out of pocket. Plaintiffs attached
Stewart’s email to Ms. Mayhill in support of their motion.
Plaintiffs submit that Stewart’s email violated Section I of the Agreed Entry, which
states, in pertinent part:
Page 3 of 6
90

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B23
15CVH-1842
I.

Defendants Stewart and TRG, agree to refrain from:
a. representing to any person, business, or entity that Defendants are
employees, agents, authorized representatives, producers, officers,
managers or doing business as, or in any way working with or for,
Plaintiffs IHT or RRL;...
d. representing to any person, business, or entity that Defendant Stewart has
any authority to enter into any business arrangements, agreements,
contracts, or transactions that in any way affects IHT or RRL.

Stewart denies violating the Agreed Entry, submitting that she merely sent an email
to IHT, requesting the same reimbursement for health insurance premiums that other past
members have received from RRL.
The Court finds insufficient evidence to warrant an order to show cause at this time.
Even if Stewart’s intention was indeed to hold herself out as a current member of IHT to Ms.
Mayhill, as Ms. Mayhill is an employee of IHT, the Court cannot find that Stewart violated
the spirit or purpose of the parties’ agreement. The Court finds Plaintiffs’ motion not well
taken.
Motion to Compel Arbitration
On July 20, 2015, Plaintiffs moved the Court to stay this action and compel
Defendants to submit their joint defenses and Stewart’s counterclaims to binding
arbitration. Plaintiffs submit that Defendants’ defenses and Stewart’s counterclaims relate
to the buy/sell agreement which contains an agreement to arbitrate disputes. The buy/sell
agreement states, in pertinent part:
§ 21. Arbitration. Except for a dispute as to a Member’s or former Member’s
Disability or Permanent Disability which dispute is resolved in accordance with §
5(b) hereof, any and all disagreements, disputes, or controversies arising with
respect to this Agreement or its application to circumstances not clearly set forth in
this Agreement, or otherwise with respect to the subject matter of this Agreement
and which are not to be determined or determinable under this Agreement by the
parties, shall be decided by binding arbitration...

Page 4 of 6
91

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B24
15CVH-1842

Defendants offer two arguments in opposition to Plaintiffs’ motion.

First,

Defendants submit that neither IHT nor TRG is a signatory or beneficiary to the buy/sell
agreement. Although the buy/sell agreement was executed between the “Members” and the
“Company,” the “Company” is defined to include “Affiliates of the Company.” See Buy/Sell
Agreement, p. 3. “Affiliate of the Company” is defined as any entity in which RRL owns
more than 50% of the voting interest. Id. p. 2. This definition includes IHT, a wholly owned
subsidiary of RRL.

Accordingly, while IHT may not be a signatory to the buy/sell

agreement, IHT is an affiliate of the company and is bound by its arbitration clause.
Defendants are correct, however, in regards to TRG. TRG is neither a signatory nor a
beneficiary to the buy/sell agreement, and is therefore not contractually obligated to
participate in arbitration.
Next, Defendants submit that the issues Plaintiffs seek to refer to arbitration are
outside the scope of the buy/sell agreement. Stewart submits that her claims and her
defenses to Plaintiffs’ claims are not related to the buy/sell agreement, and therefore, she
should not be compelled to submit them to arbitration. The Court disagrees. Stewart’s
claims and her defenses to Plaintiffs’ claims are premised on her position that her
membership interest in RRL was not properly redeemed pursuant to the buy/sell agreement
or RRL’s operating agreement. This position requires an interpretation of the buy/sell
agreement, a matter which must be submitted to arbitration.
Although Plaintiffs only requested that Defendants’ defenses be submitted to
arbitration, Plaintiffs’ affirmative claims must be arbitrated as well. Plaintiffs asserted their
claims assuming that Stewart was properly separated from RRL pursuant to the buy/sell
agreement. However, as Stewart has now challenged this element of Plaintiffs’ claims,
Plaintiffs must now demonstrate that they properly terminated her interest pursuant to the

Page 5 of 6
92

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B25
15CVH-1842

buy/sell agreement. As this also necessitates an interpretation of the buy/sell agreement,
Plaintiffs’ claims must also be arbitrated.
CONCLUSION
Accordingly, Plaintiffs’ Motion to Show Cause, filed September 18, 2015, is hereby
DENIED.

Plaintiffs’ Motion to Compel Arbitration and Stay Litigation is hereby

GRANTED IN PART.
The Court hereby ORDERS that Plaintiffs RRL and IHT and Defendant Stewart
submit their affirmative claims against each other and defenses to such claims to binding
arbitration. Plaintiffs’ claims against TRG, including TRG’s defenses, are hereby STAYED
pending the resolution of the arbitration process.
IT IS SO ORDERED.

Page 6 of 6
93

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B26

Franklin County Court of Common Pleas

Date:

11-10-2015

Case Title:
Case Number:

RRL HOLDING COMPANY OHIO LLC ET AL -VS- MERRILEE
STEWART ET AL
15CV001842

Type:

ORDER TO STAY

It Is So Ordered.

/s/ Judge Kim Brown

Electronically signed on 2015-Nov-10

page 7 of 7

94

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 Nov 10 2:02 PM-15CV001842

0C765 - B27

Court Disposition
Case Number: 15CV001842
Case Style: RRL HOLDING COMPANY OHIO LLC ET AL -VSMERRILEE STEWART ET AL
Case Terminated: 17 - Bankruptcy/Interlocutory Appeal
Motion Tie Off Information:
1. Motion CMS Document Id: 15CV0018422015-09-1899980000
Document Title: 09-18-2015-MOTION FOR RULE TO SHOW
CAUSE - PLAINTIFF: RRL HOLDING COMPANY OHIO LLC
Disposition: MOTION DENIED
2. Motion CMS Document Id: 15CV0018422015-07-2099980000
Document Title: 07-20-2015-MOTION TO STAY - PLAINTIFF: RRL
HOLDING COMPANY OHIO LLC
Disposition: MOTION GRANTED IN PART

95

Appendix I
Appendix
I

Judgement Entry
05/28/2015

Docket no.
15CV1842

Court
Franklin County Ohio Court of
Common Pleas Civil Division
Case Caption: RRL Holding, et al. v. Stewart, et al.
Description: Preliminary Agreed Entry from Franklin County Ohio Court of
Common Pleas Civil Division, Case No. 15CV1842

96

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 May 28 4:05 PM-15CV001842
i: 0C519 - J60

FRANK.!.,IN COUN TY COMMON FLEAS COURT
CIVIL DIVISION
RRL Holding Company of Ohio. LLC, el ai

Jv

CASE NO.: 15CV03 1842

PLAINTIFFS,
v

I?

Memlee Stewart, et ah

%

DEFENDANT’S.
AGREED ENTRY AS TO PLAINTIFFS’ RRL HOLDING COMPANY OF OHIO, LLC
AND IHT INSURANCE AGENCY GROUP, LLC MOTION FOR PRELIMINARY
INJUNCTION
On March 3, 2015, Plaintiffs RRL Holding Company of Ohio, LLC (hereinafter ‘URL”)
and IHT Insurance Agency Group. LLC (hereinafter 'TUP') filed a Complaint and Motion for
Preliminary'' Injunction, pursuant, to Civ. R. 65(B), against Defendants Merrilee Stewart
(hereinafter “Stewart”) and TRG United Insurance, LLC (hereinafter “TUG”), On May 4, RRL
and IHT filed an Amended Complaint. On May 18, 2015, Stewart and IHT filed an Answer to
Plaintiffs'* Amended Complaint and a Memorandum Contra Plaintiffs' Motion for Preliminary
Injunction. RRL. and IT IT filed a Reply in Support of their Motion for Preliminary' Injunction on
May 26, 2015. RRL, IHT, Stewart, and TRG have stipulated to this Agreed Entry.
NON-AFFILIATION
L

Defendants Stewart and TRG, agree to refrain from:
ds representing to any person, business, or entity that Defendants are employees,
agents, authorized representatives, producers, officers, managers on doing
business as, or in any way working with or for, Plaintiffs IHT or RRL;
bmaking any representation that TRG is located at, or operating or doing business
from HIT or RRI/s offices at 6457 Reflections Drive, Dublin, OH 43017, or

Page 1 of 4
97

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 May 28 4:05 PM-15CV001842

0C519 - J61

accepting facsimiles or other communications at telephone numbers belonging f§*
HIT;
c. making any representations to any person, business, or entity that TRG is
affiliated with or a part of 1HT or RRL; and
4s representing to any person, business, or entity that Defendant Stewart has any
authority to enter into any business arrangements, agreements, contracts, or
transactions that in any way affects IHT or RRL.
.PRESERVATION OF RECORDS.

X;X\v:v.\\\;XvXv pvpIvXpXy.w.vXv.

He:

Defendants Stewart and IMG; agree to refrain front destroying any data or
:x

information from Ms. Stewart’s HIT email account or IHT telephone (iPhone Serial No.
C7KLK74XFNDD). <
FINANCIAL ACCOUNTS
IIL:

Defendants Stewart and TRG agree to refrain from accessing, transferring,

wsing; or changing any IIIT Inanoialaecount with any financial institution.
NON-SOLICITATION AND TRADE SECRETS
IV.

Defendants Stewaft and TRG agree to refrain front:
contacting for the purpose of soliciting any current or former jen^pipyees^agentS:
or producers of JHT to establish a business relationship to sell or provide any
%surancep0vera|e;:
b. contacting or soliciting any of IHT's customers to establish a business
relationship or to sell or provide any insurance coverage; however, the parties
agree Defendant Stewart and tilQ? may contact any customer for which
Defendant Stewart was the identified producer while working at IHT; and

98

i-

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 May 28 4:05 PM-15CV001842

0C519 - J62

% sharing, using, or in any way utilizing any of iiTPs trade secrets! m deified in:
R.C. 1333.61, or confidential business information.
FORWARDING OF CORRESPONDENCE
W::

Plaintiffs BIT land

promptly forward mail or email i#tai is directed

■

W» ©i- addressed dm Mk itewart and are not related to H IT or RJIL customers or business .
To the extent hot ofawise set forth above, the Parlies agree that

operations.

Plaintiffs' Motion for Preliminary Injunction is withdrawn without prejudice to being re-filed.
SO STIPULATED:

•XvXv.w.vXvXw.v.'XvX*.

•X”.vXvX\XXvX'XvXvX'XvXvX-X'XvXvXvX-:vX-:':vX-:vXv:-v

PLAINTIFFS

ppFlNiAflp

/s/ Christopher B. Murphv______
Christopher B. Murphy (0086746)
William H. Petty (0089710)
Attorneys for Plaintiffs

/s/ Brad W. Stoll________
Alan F. Berliner (0012240)
Brad W. Stoll (0085208)
Attorneys for Defendants

IT IS SO ORDERED, this 2Stij day of May, 2015.

:::::x

o: 7

A- /

A''/

John F, Beudei

/

r

*

:x:::x::::::

otryM.fi

:x

Page 3 of 4

99

:x :x

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 May 28 4:05 PM-15CV001842
0C519 - J63

!

CERTIFICATE OF SERYICB
I hereby certify that on May 28, 2015, i caused this document to be electronically filed
with the Clerk of Courts by using the a-Fiiing system, which will send a notice of electronic
filing to all parties indicated on the electronic filing receipt, pursuant to Civ. R, 5(B)(2)(f).

L

;

Christopher B, Murphy (0086746)

:

100

Franklin County Ohio Clerk of Courts of the Common Pleas- 2015 May 28 4:05 PM-15CV001842
0C519 - J64 {

Court Disposition
Case Number: 15CV001842
Case Style: RRL HOLDING COMPANY OHIO LLC ET AL -VSMERRILEE STEWART ET AL
Motion Tie Off Information:
1. Motion CMS Document Id: 15CV0018422015-03-0299900000
Document Title: 03-02-2015-MOTION FOR PRELIMINARY
INJUNCTION
Disposition: MOTION WITHDRAWN

101

A

